<html>
<title> - [H.A.S.C. No. 114-99] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2017 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED FOURTEENTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






                                     
 
                         [H.A.S.C. No. 114-99]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2017

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

         SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES HEARING

                                   ON

                      DEPARTMENT OF THE NAVY 2017

                      BUDGET REQUEST AND SEAPOWER

                         AND PROJECTION FORCES

                               __________

                              HEARING HELD
                           FEBRUARY 25, 2016




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

99-630                         WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001











                                     
  


             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                  J. RANDY FORBES, Virginia, Chairman

K. MICHAEL CONAWAY, Texas            JOE COURTNEY, Connecticut
BRADLEY BYRNE, Alabama               JAMES R. LANGEVIN, Rhode Island
ROBERT J. WITTMAN, Virginia          RICK LARSEN, Washington
DUNCAN HUNTER, California, Vice      MADELEINE Z. BORDALLO, Guam
    Chair                            HENRY C. ``HANK'' JOHNSON, Jr., 
VICKY HARTZLER, Missouri                 Georgia
PAUL COOK, California                SCOTT H. PETERS, California
JIM BRIDENSTINE, Oklahoma            TULSI GABBARD, Hawaii
JACKIE WALORSKI, Indiana             GWEN GRAHAM, Florida
RYAN K. ZINKE, Montana               SETH MOULTON, Massachusetts
STEPHEN KNIGHT, California
STEVE RUSSELL,Oklahoma
               David Sienicki, Professional Staff Member
              Phil MacNaughton, Professional Staff Member
                        Katherine Rember, Clerk
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Forbes, Hon. J. Randy, a Representative from Virginia, Chairman, 
  Subcommittee on Seapower and Projection Forces.................     1

                               WITNESSES

Stackley, Hon. Sean J., Assistant Secretary of the Navy for 
  Research, Development, and Acquisition; accompanied by VADM 
  Joseph P. Mulloy, USN, Deputy Chief of Naval Operations, 
  Integration of Capabilities and Resources (N8), and LtGen 
  Robert S. Walsh, USMC, Deputy Commandant, Combat Development 
  and Integration................................................     1

                                APPENDIX

Prepared Statements:

    Courtney, Hon. Joe, a Representative from Connecticut, 
      Ranking Member, Subcommittee on Seapower and Projection 
      Forces.....................................................    39
    Forbes, Hon. J. Randy........................................    37
    Stackley, Hon. Sean J., joint with VADM Joseph P. Mulloy and 
      LtGen Robert S. Walsh......................................    42

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Conaway..................................................    87
    Mr. Langevin.................................................    87

Questions Submitted by Members Post Hearing:

    Mr. Byrne....................................................    98
    Mr. Forbes...................................................    91
    Mr. Hunter...................................................    99
    Mr. Langevin.................................................    96
    Mr. Peters...................................................   101
    Mrs. Walorski................................................   102
    
    
    
    
DEPARTMENT OF THE NAVY 2017 BUDGET REQUEST AND SEAPOWER AND PROJECTION 
                                 FORCES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
            Subcommittee on Seapower and Projection Forces,
                       Washington, DC, Thursday, February 25, 2016.
    The subcommittee met, pursuant to call, at 2:01 p.m., in 
room 2212, Rayburn House Office Building, Hon. J. Randy Forbes 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. J. RANDY FORBES, A REPRESENTATIVE 
     FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. Forbes. I want to welcome all of our members and the 
distinguished panel of Navy and Marine Corps leaders for 
today's hearing.
    We are in a little bit of a time crunch because they will 
be calling votes and--just actually did. See, instead of being 
prophetic, I guess I am a historian. They just called the 
votes, so Mr. Courtney and I both are simply going to submit 
our opening statements for the record. I think Joe has agreed 
with that.
    [The prepared statements of Mr. Forbes and Mr. Courtney can 
be found in the Appendix beginning on page 37.]
    Mr. Forbes. So, with that, Mr. Stackley, if you could 
provide us your opening remarks--it is my understanding that 
you are the only one to provide opening remarks--and then we 
will recess, take the votes, and come back and begin with our 
questions.
    So, Mr. Stackley, we are glad to have you here today.
    As all of you know, Sean Stackley is the Assistant 
Secretary of the Navy for Research, Development, and 
Acquisition.
    Thank you for being with us here today, and we look forward 
to your remarks.

STATEMENT OF HON. SEAN J. STACKLEY, ASSISTANT SECRETARY OF THE 
NAVY FOR RESEARCH, DEVELOPMENT, AND ACQUISITION; ACCOMPANIED BY 
 VADM JOSEPH P. MULLOY, USN, DEPUTY CHIEF OF NAVAL OPERATIONS, 
   INTEGRATION OF CAPABILITIES AND RESOURCES (N8), AND LTGEN 
 ROBERT S. WALSH, USMC, DEPUTY COMMANDANT, COMBAT DEVELOPMENT 
                        AND INTEGRATION

    Secretary Stackley. Thank you.
    Chairman Forbes, Ranking Member Courtney, distinguished 
members of the subcommittee, thank you for the opportunity to 
appear before you today to address Department of the Navy 
acquisition programs.
    Joining me today are Deputy Chief of Naval Operations for 
Capabilities and Resources, Vice Admiral Joe Mulloy, and Deputy 
Commandant for Combat Development and Integration, Lieutenant 
General Bob Walsh.
    So, with the permission of the subcommittee, I propose to 
provide brief opening remarks and submit a formal statement for 
the record.
    Mr. Forbes. Without objection, your full remarks will be 
submitted as part of the record.
    Secretary Stackley. Thank you, sir.
    On behalf of our Navy and Marine Corps, I would like to 
start by thanking this committee for your strong support in the 
2016 defense authorization and appropriations bills. Not only 
has Congress fully supported our request, the committee 
increased funding for our most critical programs, sending a 
strong signal regarding the priority you place on the role of 
our Navy and Marine Corps.
    We are committed to making good on that investment, to 
uphold our end of our shared responsibility to protect the 
Nation, to take care of our men and women in uniform, and to do 
so in the most cost-conscious manner possible and protect the 
taxpayer.
    We have been faithful to our fiscal responsibilities, 
leveraging every tool available to drive down cost. We have 
tightened requirements, maximized competition, increased the 
use of fixed-price contracts, and capitalized on multiyear 
procurements. And we have attacked our cost of doing business 
so that more of our resources can be dedicated to making 
warfighting capability.
    However, fiscal challenges remain. Across the past 4 fiscal 
years, the Department of the Navy's budget has been reduced by 
$30 billion compared to the funding that we determined was 
necessary to fully meet the Defense Strategic Guidance. This 
fiscal environment continues to drive tough choices and 
requires new thinking in order to improve the balance between 
capability, capacity, readiness, and the vital industrial base.
    Because, independent of this fiscal environment, the demand 
for naval presence remains high. Today, greater than half of 
our fleet is at sea, and nearly 80,000 sailors and marines are 
deployed. So, from the Sea of Japan to the eastern 
Mediterranean, they are our first defense against the threat of 
ballistic missiles. And from the Straits of Hormuz to the 
Straits of Malacca, they are the providers of maritime 
security. And below the surface of the sea, they are our 
Nation's surest deterrent against the use of strategic weapons.
    They are engaged in expeditionary maneuver from the Western 
Pacific to West Africa, ready to move ashore should conditions 
on the ground call for it, or provide humanitarian assistance 
wherever a disaster may occur.
    Therefore, we have placed a priority on forward presence, 
near-term readiness, investment in those future capabilities 
critical to our long-term technical superiority and stability 
in our shipbuilding program. We are well on the way to a 300-
ship Navy in 2019 and to meeting our overall requirement for a 
308-ship Navy by 2021. In 2015, we delivered 6 ships to the 
Navy, but, more impressively, we launched an additional 9 and 
laid keels for 11 more ships.
    We are preparing CVN 78, the Gerald Ford, our first new-
design aircraft carrier in 40 years, for sea trials in June and 
continue construction on her sister ship, CVN 79, the John F. 
Kennedy. And in doing so, we have been successful to drive cost 
control and improved cost on these capital ships, and we will 
continue to do so.
    We are also proceeding with planning material procurement 
to refuel CVN 73, the George Washington, scheduled to start 
next year. Meanwhile, DDG-1000, our first new destroyer design 
in 30 years, successfully completed her first at-sea trials in 
December and is readying to return to sea next month.
    Meanwhile, DDG-51 construction is progressing well with the 
first restart ship, DDG-113, on track to deliver this year and 
follow ships 114 and 115 into the water. Equally important, we 
are on track to award the first Flight III destroyer with the 
air and missile defense radar later this year. And we look 
forward to working with you as we seek to award the additional 
DDG-51 that was incrementally funded by the 2016 defense bill.
    The Littoral Combat Ship [LCS] reached a significant 
milestone in 2015 with the deliveries and commissioning of 
Milwaukee and Jackson. The construction program continues its 
strong cost improvement, and we are on track to award three LCS 
ships in 2016.
    As you are aware, we revised the program 1 year ago to 
upgrade the LCS with increased capabilities. The first of these 
frigates is to be procured not later than 2019. But, as a 
result of the budget reductions since that decision, this 
year's budget downsizes the program from 52 to 40 ships. The 
two ships requested in 2017 are the minimum necessary to 
maintain a healthy industrial base until we can run a down-
select competition for the frigate. We will keep you advised as 
we formulate the acquisition strategy for this revised program.
    In submarines, the Virginia program continues to deliver 
below budget and ahead of schedule. The next major upgrade, 
Virginia Payload Modules, is on track to replace the undersea 
strike capability of the SSGNs, guided missile submarines, as 
they retire in the next decade.
    And we continue to pick up the pace on design and 
development on the Ohio replacement program to support her 
critical schedule, releasing the contract solicitation for 
detail, design, and construction of the lead boat earlier this 
year.
    In other major programs, the big-deck amphibious assault 
ship, Tripoli, LHA-7, is on track towards her 50 percent 
complete milestone. We are on schedule with LPD-17 class 
construction. And we are off to a good start building Hershel 
``Woody'' Williams, our expeditionary stage base at NASSCO 
[National Steel and Shipbuilding Company] shipyard.
    Meanwhile, we have commenced ordering material for a 12th 
LPD [Landing Platform/Dock] and are evaluating proposals for 
three major new programs to be awarded this year--the fleet 
oiler, T-AO(X); the next big-deck amphib, LHA-8; and the design 
for the LSD [Dock Landing Ship]-41/49 class replacement, LX(R). 
And, separately, we commenced procurement of our newest Ship-
to-Shore Connector to provide high-speed surface transfer of 
the Marine Corps from the sea.
    Now, this committee has long been interested in sustaining 
the Navy's cruiser force, and we are proceeding with the 
planning, material procurement, and execution for our cruiser 
and our LSD modernization programs. The first 4 of 11 remaining 
cruisers enter modernization this year in accordance with 
congressional legislation.
    This budget requests an additional $521 million across the 
Future Years Defense Plan [FYDP] in addition to the prior 
appropriated funding to support cruiser modernization, 
including $183 million in 2017. But it proposes an alternative 
modernization plan within this funding profile to ensure the 
long-term capability and capacity for the air defense commander 
platforms.
    Approximately $3.5 billion would have been required in the 
2017-2021 years to continue cruiser modernization per 
congressional direction. We are unable to fund this approach 
while our top line was decreasing. Nonetheless, we are 
committed to retaining these ships to perform the air defense 
commander mission into the 2040s. And the Navy's submission 
provides a path to do so while respecting previously approved 
global force management decisions for these ships.
    In major aviation programs under the subcommittee's 
purview, the Navy's new maritime patrol aircraft, the P-8A 
Poseidon, is demonstrating its game-changing abilities today on 
deployment. Production continues smoothly, and we complete 
procurement of the 109 aircraft by 2019.
    We continue to field the Navy's E-2D Advanced Hawkeye, 
replacing legacy early-warning aircraft with this new 
capability that would provide air defense far beyond that 
available to today's Navy. And, meanwhile, the Navy's high-
endurance unmanned maritime surveillance aircraft, the Triton, 
is continuing integration activities and flight-testing at Pax 
River.
    In summary, the Department's 2017 budget request has 
balanced the resources provided by the Bipartisan Budget Act 
[BBA] with our requirement to provide the capability, the 
capacity, and readiness necessary to uphold national policies, 
to protect our Nation, and assure our allies. We look for your 
continued strong support for this budget request, as you have 
shown in this year's 2016 budget.
    Mr. Chairman, thank you for the opportunity to appear 
before you today, and we look forward to answering your 
questions.
    [The joint prepared statement of Secretary Stackley, 
Admiral Mulloy, and General Walsh can be found in the Appendix 
on page 42.]
    Mr. Forbes. Mr. Secretary, thank you so much for those 
remarks.
    And I want to reiterate what the Secretary said. We also 
have with us today Vice Admiral Joe Mulloy, who is the Deputy 
Chief of Naval Operations for Integration of Capabilities and 
Resources.
    Admiral, thank you for your service to our country, but 
thank you for always being willing to testify before us.
    And, also, Lieutenant General Robert Walsh, who is the 
Deputy Commandant for Combat Development and Integration.
    General, we appreciate you being here too.
    To all three of you, as Mr. Courtney and I told you 
beforehand, we would each consider it a privilege to call any 
one or all three of you our friends. And we appreciate the 
service you have done for our country.
    We do have a series of questions we have to ask, so please 
don't feel that those questions are in any way at you as much 
as they are to this budget and making sure we understand. This 
is probably one of the most bipartisan committees in Congress. 
It is probably one of the most bipartisan subcommittees. The 
range of expertise we have, each of our members are going to be 
able to ask you some very good questions on their subject 
matter.
    But I want to kind of begin with an overview. I normally 
defer mine to the end, but I want us to start off--and I told 
you each this question a few minutes ago so you would have to 
time to think about it.
    Tell us, if you would, is this budget a budget whereby you 
come before us and say, ``This is the absolute best we believe 
we can do with the dollars that are given to us,'' or is this 
the budget that you have analyzed and looked at and said, 
``This is the budget we need to defend and protect the United 
States of America''?
    And either one. This is a tag-team match, so you can have 
it. I am not trying to put anybody on the spot. We just want to 
get the answers. So whoever wants to handle that, we will let 
you do it.
    Secretary Stackley. I will start.
    First, it absolutely is the best we can do for the dollars 
that we have. I mean, that is just fundamental. The real 
question that you are asking, though, is whether this is 
sufficient, and that is obviously a tough question to answer.
    And I would just go back historically and start with the 
Defense Strategic Guidance that we described goes back to the 
2012 timeframe and that since then our budget has dropped by 
$30 billion.
    So, back in the 2012 timeframe, I think we laid out a 
strategic guidance that informed our investments, what we would 
need near-term, long-term, current readiness, future readiness, 
to provide for the security of the Nation.
    Inside of the Department of the Navy, when you pull $30 
billion out of that, you have to be extraordinarily judicious 
to make those moves and not impair the security of the Nation. 
So, each year, each year, we have had to come back and reduce 
what our projection would be for defense of the Nation and do 
that in the best risk-balanced way we can.
    So it is a--you are looking at a smaller budget and, 
therefore, reductions across every account--operations, 
maintenance----
    Mr. Forbes. So I don't want to cut you off because I told 
you at the end you could have all the time you want, but I just 
want to get clarity for us. When you guys are coming here, you 
are basing this budget primarily on the dollars that you have 
been allocated as opposed to an assessment that says, ``This is 
what we need overall to defend and protect the United States of 
America.'' Is that a fair statement?
    Admiral, you look anxious to get in there.
    Admiral Mulloy. Yes, sir. I would say that is a fair 
statement of looking at the dollars we have, especially in 
light of the 2017 Bipartisan Budget Act. And despite getting 
money in 2021 for the Ohio, the incremental costs to Ohio 
replacement, we are constrained.
    I will also tell you it takes time to analyze. We are 
looking at the world ahead, and one of the items we will talk 
later is the Force Structure Assessment, I am sure, is that we 
are going to start a new one. And the 308 Navy is based upon a 
force structure that was set back in 2012 and amended in 2014. 
At that point, there was a man named Putin who wasn't quite so 
active in the world, the Chinese hadn't grown as big, and all 
these five threats.
    So we are going to take a hard look at it. What I will tell 
you is that we have done the best we can with what we have. But 
the projections will tell you is the threats to the United 
States of America are growing. And it is mirrored by myself 
talking to Admiral Haney and Admiral Harris in the last couple 
days. I think they will tell you the same thing from the 
combatant commander viewpoint.
    Mr. Forbes. And they have been telling us that. And, as I 
said and I preface it and I will continue to say it because it 
is just true, you guys are the good guys. You guys are 
wonderful guys. But we just need to know what we are looking at 
with these dollars.
    And the reality, Mr. Secretary, as we looked at that 
strategic guidance in 2012, the world has gotten a whole lot 
more threatening, I guess is the best way we can say, since 
2012, and yet our numbers have gone down.
    We looked at the fact Admiral Harris testified that we can 
only meet 62 percent of his needs for submarines right now. 
But, in addition to that, we all know in 2007 the Navy could 
meet 90 percent of the verified or validated requirements of 
our combatant commanders around the globe. This year, my 
understanding is we will be below 45 percent, give or take. 
That means we have cut it in half.
    Are either of those two numbers acceptable numbers?
    Secretary Stackley. Clearly not to the combatant 
commanders.
    Mr. Forbes. Clearly not to----
    Secretary Stackley. They set the requirements. Therefore, 
the answer you are going to get here is ``clearly not.''
    Mr. Forbes. Good.
    And the second thing is--and, again, you guys are good 
guys, so this is not directed at you. You are doing the best 
with what you have. We just need to know what we need.
    When you talk about 308 ships, Mr. Secretary, by 2021, with 
the dollars that we currently have allocated and based on the 
dollars we have had, can we get to 308 ships with those 
dollars, or are we going to need more dollars to be able to get 
there?
    Secretary Stackley. Yes, sir. Here is the fact. We are 
going to get to 308 ships independent of the 2017 budget; 2017 
and beyond determines what size Navy we will have after 2021 
because that is how long it takes to build a ship.
    So the ships that will be delivered by 2021 have been 
authorized and appropriated in the years prior to this budget 
year. What we are setting in 2017 and beyond is the course for 
the size of the Navy past 2021.
    Mr. Forbes. And as you heard and we talked about before 
this hearing, Eric Labs, in his testimony from the 
Congressional Budget Office [CBO]--and I don't think you refute 
that, that if we continue with the degree of spending we have 
had for shipbuilding and ship construction on an average over 
the last 30 years, instead of increasing the number of ships, 
we will ultimately be down to 237 ships.
    Is that a fair assessment that he made, or is that 
inaccurate?
    Secretary Stackley. Let me put it in context. As we go 
forward, starting in 2021, you see a significant increase in 
our funding required to support a shipbuilding program due in 
large part to the Ohio replacement.
    And I think Dr. Labs' assessment and the Navy's long-range 
shipbuilding plan both say the same thing. If we constrain our 
shipbuilding account to historic levels, then, due to the cost 
associated with building an Ohio replacement--and we are going 
to build it--other shipbuilding production lines are going to 
have to be cut significantly. And that will drive a significant 
reduction in the size of our Navy.
    Mr. Forbes. Would his projection of 237, 238 ships be in 
the ballpark of what the Navy would assess it to be if we 
continue on course?
    Secretary Stackley. I would say it is very close. You would 
have to make some assessment in terms of which ships would be 
built and not, but I would tell you that my number is probably 
in the 240 to 250 range.
    Mr. Forbes. So we have a huge delta that we have to make up 
somewhere. Does the Navy have any idea where that delta would 
be made up today if we were to try to say how do we get those 
dollars?
    Admiral Mulloy. Sir, it comes back to be a balance. I would 
not constrain it to shipbuilding, but then you have to 
pressurize every other aspect of the Navy. And what I will tell 
you is we would not be able to totally within the Navy come up 
with all that money.
    So it goes back again to my discussions with the Secretary 
of Defense's staff, is that with that level of shipbuilding 
necessary and from to 2021 on to 2035 to do Ohio replacement 
and all the other aspects we need for the combatant commanders 
is going to require very likely an effort from the Department 
of Defense and very likely from the whole country to raise.
    Because, historically, when we built the Trident-class 
submarine, the Navy and Department of Defense budget went up, 
to a certain extent, to cover strategic forces. We saw the 
first inclination of that this year. In 2021, what you will see 
is that the first increment of that budget was funded with an 
increase in the Navy budget from OMB [Office of Management and 
Budget]. We need more of that from OMB and from Congress to be 
able to build the strategic force, build the Navy, operate the 
Navy, and then be part of the joint force, sir.
    Mr. Forbes. Admiral, let me ask you this. Obviously, part 
of what we have to do in looking at our force structure is what 
we project some of our peer competitors to have in their force 
structure.
    Let's go out to, let's say, 2025. The number of submarines 
we would be looking at then as a Navy if we stay on the current 
projections we have compared to the number of submarines that 
China would have, let's say, in 2025, do we have any kind of 
estimate of the disparity between those two numbers?
    Admiral Mulloy. Well, I mean, right now, we know they are 
somewhere around 70. And we can come back with a classified 
brief on the numbers. But our numbers will be dropping to below 
48 by 2025 and going to a nadir of 41.
    Mr. Forbes. By 2025, wouldn't we be at 41?
    Secretary Stackley. No. By 2025, we will be at 48 
submarines.
    Mr. Forbes. About 2021 we will be at 41.
    Secretary Stackley. In 2025----
    Mr. Forbes. Oh, 2029 we will be at 41.
    Admiral Mulloy. 2029, we will be at 41. Yes, sir.
    Mr. Forbes. And do we have any unclassified projection of 
where they will be at that time?
    Admiral Mulloy. At least 70, sir.
    Mr. Forbes. Okay.
    Admiral Mulloy. At least 70, and they are building. So, I 
mean, without a doubt--now, you get back into a whole quality-
versus-quantity issue. But, at the same time, the Russians are 
also building--we talked about the other country there--is they 
are continuing building. They build much higher-end submarines. 
To their numbers, I am not ready to forecast----
    Mr. Forbes. I gotcha.
    Admiral Mulloy [continuing]. What they would have, but they 
are certainly building as well. So the threats on the undersea 
environment continue to go up with the number of submarines 
being built by everyone else.
    And that comes back to this whole point about shipbuilding 
that I think we will start with and end on this day, is that 
the number of submarines we have was put in motion a long time 
ago, with not building and then not going to two a year, that 
we don't want to take that a case with DDGs [destroyers] or 
other ships is we need to continue to build or we will have a 
falloff in all our classes of ships if we don't on a regular 
basis.
    So, once again, to support the Marines, we have to build 
the amphibs on a regular basis. And that is that competition 
Mr. Stackley talked about. Shipbuilding has to be able to go 
up, and is it coming out of the rest of the Navy, or is it 
coming out of DOD [Department of Defense], or is it coming as a 
conscious effort of this country to say shipbuilding is 
important enough? But the submarine program, is it asomatic or 
directly related to decisions made 10 to 15 years ago?
    Mr. Forbes. Good.
    Well, let's spin off from there, then, to the general, 
because, General, we don't want you to not play a role in this. 
The LPD-28, was that crucial to the Marine Corps, to get that 
LPD-28?
    General Walsh. Thank you for the question, Chairman Forbes, 
and also Ranking Member Courtney and all of you for having us 
here and all you do for the Nation and for the Marine Corps.
    I was in a unique position last year because I was up on 
the CNO [Chief of Naval Operations] staff, on the OPNAV staff, 
working the LX(R) [amphibious assault ship] program and working 
the LPD-28, trying to bridge that gap from LSD to the LX(R). So 
I think the LPD-28 will provide us that capability now that we 
have made that decision to the LX(R) to be that derivative of 
the LPD-17, to use that common hull form, that the LPD-28 
certainly provides us, you know, additional amphib capability 
in a great, you know, ship that we needed because of the amphib 
numbers. As you know, we are at 30 amphib ships right now, far 
below the requirement that we have.
    So the committee helping us to add that 12th LPD is 
certainly going to be well-appreciated out in the operating 
forces.
    Mr. Forbes. And, General, can you tell me what the Marine 
Corps requirement currently is?
    General Walsh. Our requirement has always been 38 amphib 
ships.
    Mr. Forbes. And how many do you have today?
    General Walsh. And today, as we speak, we have 30.
    Mr. Forbes. Was the LPD a luxury or was it a necessity for 
the Marine Corps?
    General Walsh. Well, to get up to the requirement that we 
need, I think it certainly is one of those things that is 
required. So, going back to your sufficiency question, we are 
basing our numbers, you know, really on what the Department can 
afford.
    Mr. Forbes. And I understand--and, you know, again, you 
guys are the good guys. We appreciate that. What we are trying 
to find out is whether the budget is driving what we are doing 
or whether our strategy is driving what we are doing.
    And the main thing I am saying--you have a 38 requirement.
    General Walsh. Right.
    Mr. Forbes. Was that LPD a luxury or was it a necessity for 
the Marine Corps?
    General Walsh. No, I would say it was a necessity to get 
us--so I think, if I could put it into perspective, we talked 
about combatant commander demand. Combatant commander demand is 
very high. But how to put that in perspective from our 
perspective would be, it has been a long time since we have 
really ever had any ships in the Mediterranean. We used to have 
Guard MEUs [Marine expeditionary units] in the Mediterranean.
    We have been focused pretty much on the Central Command AOR 
[area of responsibility] for a long time, but as you look 
around in the AFRICOM [U.S. Africa Command] AOR and certainly 
the EUCOM [U.S. European Command] AOR, what is going on in 
Ukraine, Crimea, what you see taking place in North Africa with 
ISIL [Islamic State of Iraq and the Levant] spreading, the 
disorganization there in Libya, there is no question about it 
that the presence that we would like to have would be on 
amphibious warships in the Mediterranean.
    Right now, as you are well aware, we have our Special 
Purpose Marine Air-Ground Task Force-Crisis Response-Africa 
that is bed down in Moron, Spain. Works between Moron, Spain; 
Sigonella, Sicily; and Souda Bay, Crete--back and forth between 
those places. We would much prefer to be on an amphibious 
warship to be able to provide that capability.
    Mr. Forbes. Mr. Secretary, you just heard the general say 
that the LPD-28 was a necessity to the Marine Corps, but it 
wasn't included in the Navy's budget when you submitted it to 
us last year. Why wasn't it included? Or do you disagree with 
the general that it was a necessity?
    Secretary Stackley. No, we did include it in last year's 
budget. The 2016 budget included the funding required for the 
LPD--the balance of funding required for the LPD-28. We have 
the material on order. We expect to have that ship on contract 
at the end of this year.
    The program of record that preceded the LPD-28, General 
Walsh is correct that 38 is the number of amphibs required to 
provide a full two Marine expeditionary brigade lift for major 
combat operations. That is 38 ships.
    The CNO and the Commandant for 6 years now have agreed that 
34 would be the objective number of amphibs for the force which 
takes on some risk. Of that 34, the mix of ships would be--at 
that time was decided to be 11 large-deck amphibs, 11 LPD-17-
class ships, and 12 LSD-41/49 class.
    By adding the LPD-28, one, that greatly relieves the risk 
associated with 34 versus 38 amphibs; two, it does provide a 
bridge for the industrial base between the end of construction 
of the LPD-17 and the LX(R); and most importantly was the 
Department of the Navy's decision that we would make LX(R)--we 
would design and build LX(R) as a modification to the LPD-17 
hull form, for all the right reasons. And so now that LPD-28 
helps to provide the bridge for the industrial base, for the 
design base, for the vendor base, as well as alleviating some 
of the lift considerations.
    So now we will have 12 LPD-17s, the 11 big-deck amphibs, 
and then the LX(R) program, getting us up to about a 34-amphib 
force for the foreseeable future.
    Mr. Forbes. Two last questions from me, and then we will go 
to Mr. Courtney.
    The proposal you have is to take out a carrier air wing. 
What is the current statutory requirement for the number of 
carrier air wings that we are supposed to have?
    Admiral Mulloy. Sir, the current statutory requirement is 
to have 10 air wings.
    Mr. Forbes. And if we took one out, what would be down to 
at that point in time?
    Admiral Mulloy. Yes, sir, we would be down to nine. And we 
intend to submit a legislative proposal requesting relief from 
that.
    Mr. Forbes. Without that legislative proposal passing, are 
you able to take that carrier air wing out?
    Admiral Mulloy. No, sir. It would be blocked by 
congressional action.
    Mr. Forbes. Okay. And do you not have a proposal to begin 
doing that by October 1?
    Admiral Mulloy. The proposal was to put that in motion, but 
none of the squadrons would actually be deactivated at that 
time. We funded the air wing and the squadron for what is 
called half-year, so the people and the operations are funded 
for half a year, with the anticipation we would have some time 
to be able to coordinate that.
    Mr. Forbes. So the Navy is in a position to begin to put 
something in motion that statutorily they are prohibited from 
doing?
    Admiral Mulloy. Yes, sir. We have to--that is why we send 
over the leg [legislative] proposal when the law was subsumed, 
was that we would be able to be able to come over and make that 
case, that we think that with the current lay-down of 11 
nuclear aircraft carriers and their maintenance structure and 
the way they cycle through life, that 9 air wings actually 
lines up appropriately, such that they don't have air wings 
that don't have a carrier to go to, and we have had some air 
wings that have spent 4 years----
    Mr. Forbes. How many carriers are we required to have 
statutorily?
    Admiral Mulloy. Required to have 11, and we have 10 
currently on a waiver, and we are building the Ford, sir.
    Mr. Forbes. Okay. And if you have 10 carriers that are 
operational and one that is being refueled, how many air wings 
would you need to supply----
    Admiral Mulloy. Normally, in the previous part of the Navy, 
that would be required to have one less. It would be 10. But as 
you look at the Nimitz-class aircraft carrier and the 
maintenance structure they go through, which is one of them is 
always in a 4-year refueling overhaul, one is always in the 16-
month docking maintenance availability, and two are in 6-month 
availabilities, as you cycle through, right now, as we have 
laid out the carrier plan through 2025, at no time does an 
aircraft carrier that would be operational not have an air wing 
that would be part of their full what we call the Optimized 
Fleet Response Plan [OFRP]. This actually lines up that, in 
that plan, there are actually 3 air wings that will spend 11 to 
22 months doing basic maintenance training and planning without 
an aircraft carrier to be attached to, given I only have 9 of 
the 11 aircraft carriers.
    Mr. Forbes. So your testimony is, then, that you need to 
reduce the air wing not because of budgetary restraints but 
because you just don't need that carrier.
    Admiral Mulloy. It is a combination of primarily--it aided 
me as a cost reduction there, but it was really lined up. We 
had looked at this a couple years when I was doing the 
transition of the squadrons, the flexibility of having an air 
wing offline long enough to change the airplanes from the 
Prowlers to the Growlers, the helicopters to new design, and 
the more Hornet--the Hornet E and Fs.
    But, at this point in time, given the 11--or 10 and going 
to 11 aircraft carrier nuclear maintenance strategy--and the 
way air wings deploy is they don't go off like the Air Force 
AEF [air expeditionary force]--9 air wings actually lines up as 
the right business case, sir.
    Mr. Forbes. Mr. Secretary, the last question for mine is: 
Navy came over a few years ago and they wanted to do away with 
some of our cruisers. Then they came back to us and said that, 
oh, we rethought that, and we really just want to modernize 
them, we don't want to kill them. And now they are coming back 
and want to lay them up again.
    And we have a requirement for 88 high-end surface 
combatants. How do you get to that 88 without those cruisers? 
And, secondly, where is the money to bring those cruisers back? 
Is there any money proposed to do that, or is this just another 
way of saying we are going to euthanize these cruisers?
    Secretary Stackley. Yes, let me start with the number of 
large surface combatants. In fact, with our build rate today, 
we do have a period of time where we not just meet our large 
surface combatant requirement, which is cruisers plus 
destroyers, but we do have excess, we have additional capacity. 
And so we actually get up to a number of about 100 surface 
combatants in the mid-2020s.
    So that is not where our area of risk is. Our area of risk, 
in terms of the air defense commander, the capability that the 
cruisers provide, is when they start coming--they start 
decommissioning as early as 2020. So, in 2020, we start to 
decommission the first 11 cruisers. And the discussion that we 
are having today and the issue that we have been wrestling with 
the last several years is the modernization program for the 
last 11 cruisers. So we have four of them off and going, and by 
congressional legislation we would be allowed to induct two 
more in the 2017 budget.
    The proposal that we have coming across in the budget 
provides some operations and maintenance, some operation in 
2017, to allow the cruisers that are not in the modernization 
program to complete their deployments and their operational 
commitments. But after completing those, it would then bring 
those into the modernization program to then be allowed to 
harvest, frankly, the savings associated with demanning the 
ships, pulling them out of the operational cycle, and then 
offset some of the costs for modernization.
    So we would not be modernizing them all at the same time. 
We would be doing that in a phased fashion, starting with the 
four that are already in the modernization program. We would be 
reactivating them, bringing them back in service, as the first 
11 cruisers retire.
    Mr. Forbes. Is this a change from the proposal you had last 
year?
    Secretary Stackley. It is a marginal change, marginal 
change.
    Mr. Forbes. That is a pretty big margin to me.
    But, Mr. Courtney, you are recognized for any questions you 
might have.
    Mr. Courtney. Thank you, Mr. Chairman.
    And thank you to the witnesses for being here today. And I 
want to----
    Secretary Stackley. Sir, I am sorry. Just to clarify, when 
you say the proposals--just to be clear, we had a proposal to 
Congress in the past to bring all of the 11 cruisers in the 
modernization at the same time. And you provided the 
legislation, what is known as 2-4-6.
    Mr. Forbes. So what was your additional--what was your 
first proposal that you had for those cruisers? The very first 
one that the Navy came over with. Was it to modernize the 
cruisers?
    Secretary Stackley. I think 3 years ago the proposal cut 
the funding and proposed to decommission seven of the cruisers.
    Mr. Forbes. And then all of a sudden you came back to us, I 
think fair, and said, ``No, we really don't want to get rid of 
them. We have seen the error of our ways. We want to keep them 
in. We need them. We are going to modernize them.''
    And now you are coming back and saying, ``We are going to 
put them all up. We just don't have any money to take them back 
out.''
    Is that a fair statement?
    Secretary Stackley. Well, the dollars to put them back in 
service are all beyond the FYDP. So we would be putting them 
back in service on a one-for-one basis----
    Mr. Forbes. But, Mr. Secretary, is this decision being 
driven by dollars or by strategic concerns?
    Secretary Stackley. Well, I would tell you, frankly, first, 
it is by dollars.
    Mr. Forbes. That is what we thought.
    Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    And, again, thank you to the witnesses for being here 
today.
    I think as I mentioned to you beforehand, you know, the 
testimony we have had just in the last 2 days from two of our 
major combatant commanders, Admiral Harris and General 
Breedlove, has really underscored the seapower challenges that 
are out there and the importance of this subcommittee's 
portfolio, which is going to go first in this whole process of 
the four committees. And so, obviously, the testimony here 
today could not be of more critical nature for our Nation.
    I also want to recognize Tom Crowley, who is here, the 
Director of [Naval] Programs for [the Navy Office of] 
Legislative Affairs, who has been really an incredible asset to 
this subcommittee over the last 10 years or so. I think this is 
going to be, if not the final, close to the final appearance 
here with us.
    And I just want to thank you for your amazing advice that 
you gave to all of us and wish you good luck at NOAA [National 
Oceanic and Atmospheric Administration]. Now you can save the 
planet, you know, serving over there. And, again, we all 
appreciate your input and good guidance over the years.
    Secretary Stackley, in your testimony, on page 11, you 
stated that it is the Navy's intention to contract for up to 10 
boats in the Block V contract, which, again, we are in Block IV 
right now. Block V will commence in 2019. You know, that is a 
critical time period, given the decline in the submarine fleet 
size that was discussed earlier with Mr. Forbes.
    And I think all of us appreciate the fact that you stated 
that that is the Navy's intention, is to really not slip from 
that two-sub-a-year build rate that we, you know, scratched and 
clawed so hard for starting in 2011. But, frankly, it is not 
about us. It is really about what the combatant commanders told 
us in the last 2 days about the critical need for as many 
undersea platforms as they could possibly acquire.
    And so, I guess, you know, maybe you could talk for a 
little bit about how you plan to find, you know, the 
authorities, the savings, so that we can, again, protect that 
build rate which our combatant commanders desperately need.
    Secretary Stackley. Yes, sir.
    First, you start with the requirement. As has been 
discussed, we have a compelling need for additional attack 
submarines. Today at 52 boats; requirement of 48. We hit a 
valley of 41 boats in the 2030s. We start falling below the 
line in the late 2020s. That valley exists because of years 
that we didn't build any submarines and a long period of 
building one submarine a year.
    We got up to two boats a year starting in 2011. Everyone 
has witnessed the improved performance, through learning curve, 
through economic order quantity, everything that has come 
together on the Virginia program to drive costs in the right 
direction. And now those boats are delivering two per year, 
ahead of schedule, under budget. And they are out there 
performing. They are our leading edge.
    When the Ohio replacement starts construction, our long-
term plan has one Virginia a year and one Ohio a year in those 
years. We still continue with two boats per year, but one of 
those is going to be the Ohio replacement. That helps to 
contribute to the shortfall in submarines, frankly. And the 
first time we hit that is going to be in 2021.
    So we will be at two boats per year for a 10-year period, 
and then we are going to dip back down to one, come back up to 
two, and then we are going to dip back down to one as we build 
Ohio replacements. And we will be at one a year for a good 
while. That is not good for the Nation.
    So that has been the long-term plan. It is as much about 
affordability as anything else because of the significant 
investment that Ohio replacement is going to require.
    But as we sit here today with the 2017 budget being 
submitted and we are looking ahead to 2021, we are looking at 
the shortfall in the out-years, we have to do something 
different. We have to find an alternative to try to stave off 
that shortfall.
    So, last year and the year prior, working with Congress, we 
have had the discussion about the types of authorities and the 
way that we would design and build the Ohio replacement to 
drive affordability into the program and to balance the 
industrial base. So we are looking at that now.
    We have the design technical baseline done. We have the 
build plan that we have worked out with industry. We are going 
into the details. And as we do this, we are trying to identify, 
can we generate savings in the way we build the Ohio 
replacement to help to fund and finance that additional 
submarine in 2021?
    It is not a part of the program of record. But if we don't 
work hard today, we will miss the opportunity entirely. And the 
most important boat in terms of trying to mitigate the impact 
associated with that shortfall is the 2021 boat, that second 
Virginia in that year. If we miss that opportunity, we will not 
be able to regain that later.
    So we are working today--it is not a part of the program of 
record. That is why it says ``up to.'' But we are working 
today, and we hope and expect that you will work with us, to 
determine how can we keep two Virginias per year proceeding 
within all the fiscal constraints and within the limitations of 
the industrial base to address this compelling requirement for 
the Nation.
    Mr. Courtney. Thank you.
    I mean, obviously, this subcommittee is going to be all in, 
as far as trying to achieve that goal. In fact, I would say we 
were maybe a little bit ahead of the curve in terms of, you 
know, the measures that we passed the last couple of years in 
terms of the Sea-Based Deterrence Fund, which Dr. Labs and his 
team analyzed at the end of last year and said that, with the 
authorities that we incorporated into that fund, you know, 
multiyear authorities, economic order quantity savings, you 
know, buying across, you know, various ship programs, that he 
calculated $10 billion in savings.
    So maybe you could just talk a little bit about, you know, 
what you were thinking over, you know, down the street in terms 
of utilizing that as the mechanism to try and, again, protect 
these build rates down the road. Because, again, the message 
came through so loud and clear the last couple days about the 
fact that we really can't let that production rate slip.
    Secretary Stackley. Yes, sir.
    So, as I described, this past year, we have locked down the 
technical baseline for the Ohio replacement and the build 
strategy with our industrial base. So, this year, what we are 
doing is we are going to the next levels of details to 
identify: how are we going to procure the material; what are 
the material procurement items that we are going to go after 
first, in terms of long lead; what are the advance construction 
activities that we want to put in place not just for 
affordability but also to manage risk on the Ohio replacement 
schedule.
    And, as we do that, we are looking side-by-side with the 
Virginia program, and, frankly, we are also looking at the 
carrier program going through these two shipyards at the same 
time. And so we are trying to identify where can we get savings 
associated with procuring material across multiple programs, 
but going for these large procurements that we get to leverage 
the volume on behalf of the government; exercise the advance 
construction authorities that you provided. We have already--in 
our budget exhibit, you see where we are requesting--we are 
laying out a new incremental funding profile consistent with 
the authorities that you provided.
    We think that the tools that you have put in place, as we 
work through these details, we will be putting those tools to 
work to get those savings that the CBO has highlighted. And we 
think that is going to contribute greatly to trying to finance 
this additional submarine in 2021.
    Mr. Courtney. Thank you.
    Mr. Forbes. Mr. Byrne is recognized for 5 minutes.
    Mr. Byrne. Mr. Stackley, 2 years ago you remember that the 
Secretary of Defense recommended a reduction of the LCS program 
from 52 ships to 32 ships, and the Navy went through a several-
month period of study to determine what the future was going to 
be for the LCS program. As a result of that, the decision was 
to go back up to the 52-ship buy, and the last 20 ships would 
be the upgraded frigates. And we funded it in the omnibus that 
year and the omnibus bill this past year. So we followed that, 
along with what the Navy and the Department of Defense asked us 
to.
    Now, we are abruptly going back down to 40. So I am 
wondering if a similar analysis was performed in your decision 
to recommend going from 52 to 40 as you did when we decided to 
go back up to 52 and to upgrade to the frigate. Did you do a 
similar study or analysis to get to that?
    Secretary Stackley. Sir, Admiral Mulloy made reference to a 
document that we refer to as the Force Structure Assessment. It 
is the CNO's document to take a look at what size and shape 
does our Navy need to be--numbers of ships by types.
    And the most recent update to the Force Structure 
Assessment was done in 2014. And in there we outlined, by type 
of ships, small surface combatants--which the LCS is a small 
surface combatant--that we require 52 of these ships to perform 
our missions.
    The decision a couple of years ago to stop construction of 
the LCS at 32 ships and then move to a more lethal, more 
survivable ship consistent with a frigate, we have procured 20 
of those. That keeps the total number of small surface 
combatants at 52: 32 LCSs, 20 frigates.
    We completed that design activity. The frigate is going to 
be a modification to the LCS, so we still meet our 52 
requirement.
    In this budget cycle, the decision was made--again, it 
comes down to the reductions in the budget. Reductions in the 
budget drove trades in terms of capability, near-term, long-
term. And the decision was made, not based on Force Structure 
Assessment, the decision was made to reduce the number of small 
surface combatants to 40.
    That would mean a reduction inside the FYDP from 14 down to 
7. It drives it down-select to the program. And what we have 
tried to do with that decision is tried to stave off the down-
select until we can we get to that frigate design, because that 
is what we do need for the balance of our small surface 
combatants.
    Mr. Byrne. But your decision was to go to 52, and now we 
have gone abruptly down to 40. So you have made the decision 
based upon what analysis, if any analysis, that is similar to 
what we did 2 years ago to do the 52 buy-in, to have the last 
20 be the frigates?
    Secretary Stackley. The Navy's analysis is captured by the 
Force Structure Assessment, which still requires 52 small 
surface combatants. The decision to go from 52 to 40 becomes a 
budget-driven decision and accepts risk with the small surface 
combatants.
    Mr. Byrne. So you still need the 52 surface combatants.
    Secretary Stackley. In accordance with our Force Structure 
Assessment, yes, sir.
    Mr. Byrne. So, by recommending we go down to 40, you are 
not meeting your requirement for surface combatants, small 
surface combatants.
    Secretary Stackley. The answer is we are taking risk in 
small surface combatants.
    And, frankly, the Secretary of Defense, you know, he looked 
at the total force structure and described large surface 
combatants--we are going to get up to 100. So, in fact, we have 
more large surface combatants during this period of time. So he 
decided, well, we will take risk, we will use the large surface 
combatants to offset the small.
    In the long term, what we have to do is make sure that that 
decision, in the long term, we don't end up going south in both 
large and small surface combatants.
    Mr. Byrne. And have you done a study about what this is 
going to do to the industrial base?
    Secretary Stackley. We are working with the industrial base 
right now. Well, the clear statement--the clear statement is, 
with the numbers that we are talking about, we have to go to a 
down-select. So, while today we have two shipbuilders who have 
been in this program from day one----
    Mr. Byrne. And driven down costs.
    Secretary Stackley [continuing]. And have invested in their 
facilities, have driven down costs, and are delivering in 
accordance with contracts and plans, once you go to this level 
of construction, you have to down-select. There is not enough 
workload there to sustain two shipyards.
    Mr. Byrne. But your request for the next year is for two 
ships, and we have been doing three ships, plus one forward-
funded. So what is going down to two ships, even in the 
interim, going to do to the industrial base when you have two 
shipyards still operating?
    Secretary Stackley. There will be a cost impact associated 
with going to two versus three, but it won't break the 
industrial base. What will break it will be the decision to 
down-select. That will drive, likely, one of those shipyards 
out of business, based on their other workload.
    Mr. Byrne. But it was--I am going to run out of time, but 
it was your decision, the Navy's decision, that you liked 
having two competing shipyards because that helped drive down 
your costs. Are you concerned it is going to drive your prices 
back up?
    Secretary Stackley. Wherever we have competition we have 
better outcomes in terms of not just cost but also in terms of 
innovation.
    And so what we would have to do--again, we are formulating 
the acquisition strategy. But, in that down-select, we would 
likely down-select for the balance of the program, so we exit 
the program with competition and not end up in a sole-source 
scenario. But when you do that, you add risk--you add 
significant risk to the program.
    Mr. Byrne. My time is out, but I have some further 
questions to submit to you later in writing. Thank you, sir.
    Mr. Forbes. And I think, for clarification, what Mr. Byrne 
was asking, it would be an increase of about 20 percent in cost 
in fiscal year 2017, correct, for both?
    Secretary Stackley. There would be two sources of cost 
increase. There is going to be cost increase to the ships that 
you are procuring. But also, recognizing that one of those 
shipyards is going to go out of business, and that is going to 
drive cost to all the ships under construction.
    Mr. Forbes. Okay.
    The gentlelady from Guam is recognized for 5 minutes.
    Ms. Bordallo. Thank you very much, Mr. Chairman.
    And, gentlemen, thank you for your testimony here today and 
for your service.
    I do applaud the work of our Navy in providing forward-
deployed capabilities and continuous global force projection 
despite significant fiscal constraints. For example, I know I 
am not alone in this subcommittee in supporting robust U.S. 
freedom of navigation operations [FONOPs].
    Admiral Mulloy, yesterday, Admiral Harris testified that 
Chinese intent to militarize the South Pacific region is very 
clear. Beyond continued FONOPs and given the restrictions we 
face, not being claimants in the territorial disputes, how can 
we continue to counter Chinese influence in the South and East 
China Seas? And what resources, authorities, or funding does 
the Navy need to do so?
    And, further, how can we leverage partnerships in the 
region as a multiplier effect to strengthen our posture and 
reduce costs?
    Admiral Mulloy. Yes, ma'am. I would like to formally answer 
an area of the authorities that are outside of my area as the 
N8 for the Navy. But I would like to answer your question now 
and then propose a longer answer once I coordinate with other 
parts of Navy staff.
    From my area, one of the biggest items I think we have to 
do is continue to maintain that forward presence. We just put 
our fourth submarine in Guam. We are moving the second 
submarine down there. We need to have the continued operations 
of the Pacific Fleet out there. We need to develop those high-
end weapons and develop and test them out there, because when 
we test them we demonstrate to the world we have the capability 
to hold Russia, China at risk.
    So it is building those forces, it is building the weapons, 
it is building the aircraft necessary to operate and continue 
to operate with our allies. We have no territorial aspersion 
there. We do FONOPs against all the countries over there 
because we don't agree with any of their particular claims. We 
want them all to solve it as group.
    So, for all the attention we are getting through FONOPs 
against China, we drive past all of the islands claimed by all 
the countries out there and remain an ongoing program around 
the world of wherever there is pressure, because we view it 
as--part of our maritime history of this country is we provide 
freedom of the seas and ensure it for all countries.
    And in terms of--so we have to build the ships, we have to 
build the aircraft, we have to build the weapons, and we have 
to demonstrate their use, and we have to work with our allies 
in that area, from smaller navies such as the Philippines, to 
working with our Malaysian allies, and primarily with our--our 
clear allies by treaty are also Japan and Korea.
    So, as we work around that area, that is what we have to 
do, ma'am, is continue to be operating with presence, which 
requires support from Congress and our efforts to have the 
ships and weapons to go forward.
    Ms. Bordallo. Thank you, Admiral.
    Now, for any of our witnesses, the CSIS [Center for 
Strategic and International Studies] recently released another 
independent assessment on the rebalance to the Asia-Pacific 
region. Among their recommendations, a few seem pertinent to 
this hearing. The report calls for a second carrier to be 
positioned in the Asia-Pacific region, ostensibly in Japan, as 
well as greater presence from small surface combatants. The 
report also calls for increased undersea capabilities in the 
Asia-Pacific region.
    Now, I am concerned that this year's budget will challenge 
the Navy to address these recommendations from the report. What 
steps is the Navy taking to address the recommendations from 
the CSIS? And how, broadly speaking, does this year's Navy's 
budget support the rebalance strategy?
    I guess, Admiral, that would be a question for you.
    Admiral Mulloy. Yes, ma'am.
    As I indicated, we are taking--the study has been 
evaluated. We are looking at other options.
    First off, this forward-deployed aircraft carrier is an 
easy-to-recommend solution but tremendously expensive. Even if 
I was beyond a Budget Control Act maybe, we are talking an 
investment of, if we had permission in places, $2 billion to $5 
billion just to be able to have the ability to have a carrier 
air wing and deploy things. So that is a significant change 
fundamentally going forward.
    In terms of the other items, as I said, we are putting two 
extra DDGs in Japan that are the fully, you know, what we call 
Baseline 9 ballistic missile and cruise missile defense ships. 
We are putting four LCS in Singapore by 2018. We are continuing 
to put in extra--the LPD-17 class you heard about earlier, the 
first increment of that ship is actually going over to replace 
in the amphibious ready group in Japan.
    So, across the board, all our forces, the submarine force 
we talked about is--the concern is the size. We put a fourth 
one in Guam so that we have that fantastic location to operate 
from. We get significant presence and the ability to rapidly be 
in the waters. You leave Guam, and within a couple of days you 
are in somebody else's waters. That is not lost on the Navy; it 
is not lost upon other people over there.
    So, once again, forward basing is important to us. We just 
continue to do that, and we need to continue to build the 
Virginia class and also build the Virginia Payload Module. So I 
get from 12 to 40 strike weapons on every SSN [attack 
submarine]. So every SSN can do all those missions but bring a 
much larger firepower and punch on board. Those are all steps 
we have to do as we look forward to it.
    It includes, you know, basing and building our P-8s, to 
build 109. Our first squadron will now have airplanes in 
Whidbey Island by the end of the year, and we will start being 
able to do detachments out of Hawaii. Those all are steps the 
Navy takes to lean forward in the Pacific, ma'am.
    Ms. Bordallo. Well, thank you very much, Admiral.
    And I yield back.
    Mr. Forbes. The chairman of the Readiness Subcommittee, Mr. 
Wittman, is recognized for 5 minutes.
    Mr. Wittman. Thank you, Mr. Chairman.
    Gentlemen, thank you so much for joining us, and thanks for 
your service to our Nation.
    Secretary Stackley, I want to build on a comment that you 
made concerning LPD-28 and LX(R). I just returned from PACOM 
[U.S. Pacific Command], along with Ms. Bordallo. As we talked 
to PAC [Pacific] Fleet commanders, PACOM commanders, one thing 
was clear: Amphibious ships are in dire need in the Pacific, 
and I know as well as throughout other areas where our MEFs 
operate MEUs and our MAGTFs [Marine air-ground task forces].
    What I want to get from you is this. We are looking at how 
do we keep things on track. And I think General Neller put it 
well. This is a program with LX(R). We are using the LPD-28 as 
a prototype. So we are moving things quicker, we are building a 
ship less expensively, and we are delivering it faster. So all 
those things--very, very necessary.
    In the Consolidated Appropriations Act of 2016, we provided 
$250 million to move that program to the left, from 2020 to 
2018. And I appreciate your testimony to say that you are doing 
long-lead-time material acquisition as well as advance design 
work to move that to 2019.
    As we look at shipbuilding programs, I think it is 
critical, the spacing in programs and how those programs come 
into being and how we fund ships. You heard from Mr. Courtney, 
ORP [Ohio replacement program] is extraordinarily important. 
But we have to make sure, too, that we have the timing on these 
programs correctly. That is why I believe it is extraordinarily 
important to be able to move LX(R) to the left to begin in 
2018. I think that is critical because that makes space to 
where ORP can come online and we don't have to worry about 
unbearable cost at any one time. So making space for that with 
what we know is coming with ORP I think is critical.
    My question is this. I think it is necessary to move LX(R) 
to the left, to start in 2018. What can we do in the fiscal 
year 2017 and NDAA [National Defense Authorization Act] 
deliberations to make that happen, to truly make what was in 
the Consolidated Appropriations Act of 2016, and that is moving 
the start from 2020 to 2018? Give me your perspective on how we 
can make that happen. Because I think the industrial base 
capacity is there.
    Secretary Stackley. Yes, sir.
    The flow is, first, the decision to use the LPD hull form 
for the LX(R). That was the first key decision here, and that 
was just a little bit over a year ago. And so, with that 
decision, everything flows from that.
    The second thing then came down to the LPD-28, using that 
as a bridge platform. And so we have the LPD-28 material on 
order, and that ship will be under construction here in about 
the 2017 timeframe.
    Then the third piece is the design itself for the LX(R). We 
have what is called contract design going on right now, which 
is the level of detail that you need in order to put the actual 
ship under contract. But we have to go from contract design to 
detail design that the shipbuilders will need to do before they 
start construction.
    So I can't look at you today and say--other than providing 
additional funding for more material and risk reduction, things 
of that nature, I can't say today that we will be able to 
accelerate another year. But what I can say is that we will 
work with industry and determine can we accelerate that design 
activity, which is the thing that next needs to be done, 
alongside the material procurement, in order to get the 
construction going a year earlier.
    I know it is a top priority for industry because of the 
industrial base concerns. I think the decision to reuse the 
LPD-17 hull form greatly reduces the amount of design activity 
that is going to be required.
    Now what we need to do is just carefully make sure that we 
are not rushing into construction before we have completed the 
design sufficient enough that we don't end up losing what we 
have today, which is good cost control, good performance by the 
shipyards.
    Mr. Wittman. Seems like to me, though, that what we are 
learning on LPD-28, we have made much of that transition, so we 
should be able to capitalize on the time advantages that we are 
gaining from that. We are using the same hull form. The onboard 
ship systems and determining what we are going to have on the 
LX(R), to me, is that linchpoint. To me, you can still get to a 
mature design, do long-lead-time acquisition, as well as 
accelerate design. I think the industrial base has the capacity 
to do that.
    So I am wondering if--you seem to be somewhat hesitant to 
say that the Navy can actually move it to the left. Is there 
some impediment to be able to do that? Because it seems like 
the capacity is in the right places, so what I am asking is 
what do we need to do to make that happen.
    Secretary Stackley. Well, let me first--you mentioned the 
LPD-28. We are using that as a bridge ship not just for 
construction but for design, because it will be an interim 
between the LPD-17 hull form and the LX(R). And we did that for 
that exact reason.
    Mr. Wittman. Uh-huh.
    Secretary Stackley. But today our schedules don't arrive at 
a design that is going to be 2 years early, you know. So we go 
ahead and pull the material ahead so we can at least get a year 
out of there. But I can't look at you today and say we can 
accelerate that activity by a year.
    Now, you know, a bridge, a mitigating strategy might be 
let's go ahead and bet that we can and put the mechanics in 
motion to support that and then have an exit strategy if, in 
fact, the design is not ready.
    Mr. Wittman. Gotcha. Very good.
    Thank you, Mr. Chairman. I yield back.
    Mr. Forbes. The gentleman from Massachusetts, Mr. Moulton, 
is recognized for 5 minutes.
    Mr. Moulton. Thank you, Mr. Chairman.
    Gentlemen, thank you very much for being here.
    I think it is very important on this subcommittee that we 
talk about numbers of ships and capacity and whatnot, but 
sometimes I get a little frustrated when we seem to focus 
exclusively on that.
    My experience in the Marines, you know, if I had a platoon 
going up against a bunch of Taliban, I wouldn't much care 
whether there were 40 or 50. I would care a lot about whether 
they had IEDs [improvised explosive devices], whether or not 
they had just rifles or automatic weapons, whether they had 
active cellphone networks so they could provide intelligence on 
what we were doing or whether they had no idea where we were 
maneuvering.
    So I think it is hard to talk about the number of ships we 
need when you don't talk about the relative capabilities of 
those ships versus our adversaries. I know that is something 
that you look at in your planning, but I think it is something 
we also need to talk about here in the committee.
    I am new to Congress, but I understand we have statutory 
requirements for the number of aircraft carriers that we have. 
We don't seem to have statutory requirements for spending on 
research and development [R&D] or spending on intelligence or 
cyber or meeting the hybrid warfare capabilities of Russia. Is 
that correct?
    Secretary Stackley. That is correct.
    Mr. Moulton. You know, if we had canceled the Manhattan 
Project during World War II so that we could build a few more 
aircraft carriers, I don't think it would have been a good 
decision.
    Now, this Congress recently passed a science bill, really 
just a thinly veiled attack on climate science, but it 
prevented funding for NSF [National Science Foundation] 
projects that are not in the, quote, ``national interest.'' 
Now, this sounds great. We want to fund things that are in the 
national interest. But if that bill had been passed a long time 
ago, I don't think that Einstein would have able to get his 
funding, back at Princeton, for the basic research that led to 
our strategic nuclear capability.
    So my question really gets to the heart of this debate 
about capability versus capacity. Do you think that our 
capability lead over Russia and China is growing or shrinking?
    Secretary Stackley. I would describe it as we have two 
curves. Since World War II, our curve in terms of capability 
has been the steepest curve on the chart. However, in the last, 
say, 5 years, what we are seeing is China and Russia, their 
curve, frankly, looks like it is going to cross ours, and in 
certain areas it has crossed ours.
    Mr. Moulton. So how many times has China attacked us here 
at home with aircraft carriers or cruisers in the last 20 
years? I think we know the answer. How many times has China 
attacked us here at home with cyberattacks?
    Secretary Stackley. It is ongoing.
    Mr. Moulton. It is ongoing.
    So my question is this: What can we do on this committee to 
help you better balance investing in capacity versus investing 
in capability?
    If it is true that these lines are about to cross and this 
historic lead that we have enjoyed for half a century over our 
biggest allies--adversaries, rather, is going to go away. So 
what can we do to free you from the parochial, political 
concerns of Congress to make sure that you can make the 
smartest decisions about where these investments go, not just 
in capacity but in the capabilities of our forces?
    Secretary Stackley. Sir, I would tell you, in building our 
budget, there is intense effort to try to get the right balance 
in terms of capacity and capability. There truly is. And when 
we deliver the budget to Congress, what we owe you is an 
explanation of how we believe this strikes the right balance so 
that, in fact, we are not shorting capability or readiness in 
exchange for capacity.
    Mr. Moulton. It is hard to believe that if your statement 
about our lines crossing, about China's technological 
acceleration approaching or exceeding ours is indeed true. It 
doesn't seem that we are going to be able to protect the United 
States of America if Russia and China are catching up as 
quickly as they are.
    Secretary Stackley. Well, yes, sir, let me describe. I said 
our lines are crossing in certain areas. And I think these 
areas folks are well familiar with. We can talk about the DF-
21D [Chinese anti-ship ballistic missile], which, frankly, 
caught us by surprise, and other areas where China and Russia 
have invested. They are targeting specific what they consider 
to be vulnerabilities in terms of the United States Navy or the 
United States military. And we have either fallen behind or are 
playing catchup there.
    Today, in our budget, we look across our weapons systems in 
terms of what we are developing, investing in for future 
capabilities, as well as the capacity that we will need. 
Because we do not believe that it is a choice, that it is one 
or the other. We believe we need both. And we are trying to 
deliver both within the constraints of the budget that we have.
    Admiral Mulloy. Sir, what I would say is, in terms of the 
vectors and crossing, there are some areas where some may have 
crossed and we come back. The ballistic missile defense, we 
have certainly made a lot of efforts that are highly classified 
to be able to work on that.
    One thing, what can Congress do? Lift the Budget Control 
Act, without a doubt. I mean, I go back again to the PB12 
[President's budget for fiscal year 2012] levels, what we had, 
what a very much different world we would be in right now.
    When you come down to it, how much R&D? There is no floor 
to R&D or no limit to it. However, as we develop our science 
and technology budget, that is one area that is protected, that 
it must be the same as inflation or greater. So we have always 
had a 2 percent growth. Independent of all my other projects 
going down, the baseline what we call budget activity 1, 2, 3 
has always gone up to match inflation. We have never lost an 
erosion on that. That is coordinated through OMB and all the 
services.
    So we maintain a minimum. That is certainly not where we 
want to have it. But we have laid out for our Chief of Naval 
Operations the vectors of the Russian and Chinese submarine 
forces, missile systems, other items. Where can we bend our 
curve? And that is where we are starting to make some of these 
investments: to buy the SM-6 missile and the test the Secretary 
of Defense just announced last week, be able to make a weapon 
that goes at tremendous speed and range to launch off a large 
number of platforms suddenly puts a large number of Chinese and 
Russian ships at greater risk from us, and the more modes we 
can create for that weapon.
    So to unleash the innovation of the American engineer and 
the American worker is where we really need to be. That is what 
restores some of that. But it comes down to being the 
resources, so Mr. Stackley is right. We are attempting to 
balance as we can. We have fully funded, have not cut any of 
the cyber teams. The Navy has to provide 40 cyber teams, sir, 
to the Cyber commander and to the President. Those are all 
fully funded in this budget. We are developing all those tools. 
We wish we had more money. We are looking at our platforms that 
we have to.
    So we do try to find balance. But what can Congress do is, 
either your tremendous level of effort in 2016 to lift what was 
essentially a BBA cut to restore us to what we asked for, 
despite what could have been less, was an effort. But we need 
that across the board to actually lift that act through 2021. 
Otherwise, we are back every year again. We need a BBA for 2018 
and 2019----
    Mr. Forbes. The gentleman's time has expired.
    And since he thinks it is parochial, we will try to get 
some people--maybe you weren't in the briefings when they said 
that the number-one thing we could do to stop a conflict from 
going to 0-3 was a carrier strike group. That is why they think 
it is so important. And the number one they thought we could do 
to actually win that conflict was having a carrier strike 
group. So let's try to get those guys back over here to brief 
us again.
    But, with that, the gentlewoman from Missouri, Mrs. 
Hartzler, is recognized for 5 minutes.
    Mr. Conaway, the chairman of Agriculture, is recognized for 
5 minutes.
    Mr. Conaway. I have kind of an in-the-weeds kind of 
question, Secretary Stackley.
    In the 2016 NDAA, we had put a restriction in place that 
prevented the Navy from buying bulk biofuels--it wasn't 
competitive with conventional fuel prices--in the attempt to 
try to bring some rationality to budget constraint in the area 
rather than spending a lot of extra money on fuel that you can 
buy conventionally for less.
    Did you guys work with the USDA [U.S. Department of 
Agriculture] to have the USDA buy down the feedstock costs so 
that you could turn around and look like the Navy is buying the 
fuel at a much reduced price to get around the NDAA?
    Secretary Stackley. Sir, I have not heard anything to that.
    Mr. Conaway. Okay. Would you take that one for the record?
    Secretary Stackley. Yes, sir.
    [The information referred to can be found in the Appendix 
on page 87.]
    Mr. Conaway. Secretary Mabus and I have had a long-running 
gentleman's disagreement on algae-based jet fuel in particular. 
And I am concerned that you guys may have tried to get around 
the NDAA, and I would be very disappointed if you did. I am 
hopeful you will get back to us and say, no, that didn't 
happen, we are fully compliant with the NDAA, and we have not 
circumvented the spirit of that restriction.
    Secretary Stackley. Sir, I am going to make a statement 
exactly to that effect, because we would not do that. Now, I 
will go back and confirm it for you, but there is no way that 
the Department of Navy would have circumvented the NDAA or 
created some mechanics with the Department of Agriculture to 
undercut the----
    Mr. Conaway. Well, the mechanics are already in place 
because that whole effort was a joint effort between Department 
of Defense and Department of Agriculture to build that refinery 
and invest in it. And so I am concerned that there would be 
some games being played there. So if you will check that, I 
would appreciate it.
    And I yield back.
    Mr. Forbes. The gentlelady from Florida, Ms. Graham, is 
recognized for 5 minutes.
    Ms. Graham. Thank you, Mr. Chairman.
    Thank you. Thank you all for being here.
    I represent NSA [Naval Support Activity] Panama City, and a 
lot of the countermeasures for mines are being developed there. 
I am very proud to represent that part of Florida.
    I understand that there is a transition going on with our 
countermeasures for mines from older processes to the new LCS, 
off of the LCS ships. What is the status of that?
    And I have a followup question.
    Secretary Stackley. Yes, ma'am.
    There absolutely is a change to the way we are conducting 
mine warfare. First and foremost, we want to get the ships out 
of the minefield, in terms of searching for, identifying, and 
neutralizing the mines. And that is how the LCS concept is 
structured.
    So, rather than put the ship in the minefield, what the LCS 
carries is what is referred to as mine countermeasures mission 
package, which is a series of systems that first locate a mine 
or a mine-like object, then verify that it is a mine, and then 
go out and neutralize the mine.
    It is one of the toughest things that we do, because if you 
can imagine a large expanse of the ocean, that you are just 
looking for anything that might be a mine-like object, and then 
you have to verify that it is before you go out and neutralize 
it, without you entering the minefield.
    So we do that through use of unmanned vehicles. Today, what 
is referred to as the mine countermeasures missions package is 
going through testing. We spent virtually all of last year off 
of Panama City testing this package. And, frankly, we met our 
requirements, where the requirement is how long will it take 
you to clear a minefield of a certain area as well as a channel 
of a certain length of mine-like objects.
    We met our requirement, but along the way of meeting the 
requirement we also determined that the principal vehicle that 
we use for towing a sonar that spots the mines, that vehicle 
does not meet our requirements in terms of level of 
reliability. So we have put procurement of that vehicle on hold 
while we go out and look at other alternatives for the vehicle.
    But all the other elements of the mission package are 
working well. The sonar works well. We have what is referred to 
as an airborne laser mine detection system, which is virtually 
a laser detector that is carried on a helicopter. That is 
working well. The neutralization system is working well.
    But what is referred to as the Remote Multi-Mission 
Vehicle--it is unmanned--its reliability is unsatisfactory. So 
we are going to go ahead and make some modifications to the 10 
of those that we have and have a mission package that is 
available for deployment.
    We are already deploying elements of the mine counter 
mission package today in theater as they prove effective, and 
then we are going to go off and look for a longer-term 
alternative solution for the vehicle that will tow the sonar.
    Ms. Graham. So the plan that had been put in place to phase 
out the old process has been modified until we have developed a 
new process for the vehicle, the unmanned vehicle, that will be 
using the countermeasures package, if I am----
    Secretary Stackley. Yes, ma'am. We expect we will have 
these mine countermeasure mission packages available for 
deployment on LCS by 2019. This will be with the current 
vehicle.
    We want to get to an alternative. We think it is going to 
take an extra approximately 2 years to get to this alternative 
and complete its initial operational testing for its 
deployment.
    Ms. Graham. Well, terrific. You answered all my questions. 
Thank you. I really appreciate it.
    And come back down to Panama City as frequently as you 
would like. It is wonderful down there.
    Thanks. Appreciate it.
    I yield back, Mr. Chairman.
    Mr. Forbes. Mr. Knight is recognized for 5 minutes.
    Mr. Knight. Thank you, Mr. Chair.
    I have just a couple questions. I will start off with 
General Walsh.
    And let's talk a little bit about the transition that we 
are going through from Hornets to JSF [Joint Strike Fighters]. 
Where are we? How is it going? We went out to Quantico a couple 
days ago; we talked to some Marine aviators and talked to them 
about the Joint Strike Fighter. Can you give us an idea?
    General Walsh. I think, yeah, the program is going real 
well. I mean, the Marine Corps, we are on the front edge of the 
rest of the Department of Defense on this. And so VMFA-121 is 
our first IOC [initial operational capability] squadron that 
stood up this last year and has gone out to sea. So we have our 
first operational squadron.
    They are going to be able to deploy here next year. They 
deploy in 2017 to Iwakuni, Japan, and then be forward deployed 
on the USS Wasp. So they will be really the first deployed 
fifth-generation capability in the Department of Defense that 
we have had. So, very excited about that.
    The program, if you get a chance to talk to any of the 
aircrew that were there or maintainers, they are very excited 
about putting the airplane through a lot of tactics, training. 
And it is doing phenomenally well. It is exactly what we 
thought it would be doing.
    Obviously, we have delays between--we made a decision to go 
from Prowlers, Harriers, and Hornets to get to fifth generation 
in the F-35. I made that decision a long time ago. In the 
interim, we were on the front edge of this as the Marine Corps, 
and there have been some delays in the program, as there is in 
most programs, where you work through this. But we are really 
confident on where we are at.
    Now, the legacy side, back to the F-18s, is we are 
struggling with that piece because the airplanes are getting 
older, and, if you have seen the readiness levels, I think 
about half the fleet right now is in a depot awaiting depot-
level maintenance. Thanks to the committee and Congress is 
helping us a lot with those readiness dollars to get the 
readiness up, to get that plug in there while we transition to 
the F-35.
    But I think we are very confident that we are on the right 
path by going to the F-35 and that fifth-generation 
capability--not because of its stealth and precision 
capabilities. I think those are given. I think what people are 
going to really start to see in this aircraft--and we are 
seeing it in our exercises and operations that we have right 
now--is for the Marine air-ground task force, the ability to 
sense--the airplane is just a sensor. And it is able to take 
that information, sense it, bring it in, and now the ability to 
start sharing that around the battle force with the United 
States Navy, also the joint force, and certainly our marines on 
the ground.
    That is the area that we have to continue to spiral up and 
get better at, not only on the aircraft to be able to share 
that information down to marines on the ground, but also to our 
ships. Certainly on the amphib ship side, we have not had that 
type of capability in our Harriers, to be able to downlink, 
share that type of information off the aircraft like we have in 
the past.
    So I think the F-35 is going to bring tremendous 
capability. Now we have to leverage that capability throughout 
the battle force, both on the ground and with the ships.
    Mr. Knight. Super. Super. Thank you. Thank you, General.
    Admiral--and I know the Chair is adamant about this, and I 
know most of Congress is. But if the air wing was disbanded, 
what would happen to that air wing? Would we still have that 
air wing? Would we keep that as a ground force or as a relief 
force? Or what would we do with that air wing?
    Admiral Mulloy. Well, sir, if we retained the air wing, it 
would stay into the cycle. We would end up with gaps, because 
air wings don't deploy to the ground, so we would not go to 
Japan or Guam with an air wing----
    Mr. Knight. Right.
    Admiral Mulloy [continuing]. Because it is contingent upon 
fighting on the aircraft carrier as a unified force.
    So what happens with the air wing is we are going to what 
we call deactivate. The airplanes will move to other squadrons. 
The pilots and mechanics will go to other squadrons. The colors 
and the flags of the squadron will be basically put in a museum 
on hold in case we are going to go back and grow the Navy in 
the future. As we do another future force assessment, we would 
be able to reactivate the squadron.
    But not a single airplane will be taken out, and not a 
pilot or mechanic will leave the Navy. Where we will actually 
get the savings from is, at this point in time, we don't have 
to bring as many people in to relieve them by the end of the 
FYDP.
    Mr. Knight. Right.
    Admiral Mulloy. So that is the cycle where the savings come 
from.
    And there is a little bit in terms of operations. When I 
give--let's say he is the commander of the next squadron; I 
give him my airplanes. He needs a little bit of O&M [operation 
and maintenance] dollars to keep them running but not the same 
I had to do to keep the whole squadron running.
    So there is an operations savings and a manpower savings. 
But, once again, that is merely more, to my mind, a cost 
avoidance. But the air wing itself would not have a place to go 
if we don't have an aircraft carrier for it, other than it 
flies at its home base.
    Mr. Knight. Thank you, Admiral.
    I yield back, Mr. Chair.
    Mr. Forbes. Mr. Langevin is recognized for 5 minutes.
    Mr. Langevin. Thank you, Mr. Chairman.
    And, gentlemen, I want to thank you for your testimony 
today and your service to the country and for your willingness 
to speak with us today about the Navy's budget for fiscal year 
2015.
    I hadn't planned to ask this question, but to the 
chairman's question and to the last line of questioning on the 
air wing that would be retired, given the national security 
challenges that we face, aren't you taking a capacity out of 
the system in the event that we have to surge?
    I mean, doesn't that allow you to, for example, utilize 
that 10th air wing, even if they are not deployed on a carrier, 
that if we need them, that allows the carriers to shift down 
there, to allow more sorties to be flown, et cetera. And if you 
retire that 10th air wing, aren't you taking capacity out so it 
doesn't therefore have that in reserve, you know, should 
conflict break out?
    Admiral Mulloy. Well, sir, it all comes back to the 
ergonometrics of an air wing in the Navy design, unlike an Air 
Force AEF, you would have, I guess, an absolute level, you 
would be missing a few squadrons of airplanes. But you don't 
fight a group like that from a land base. That is the 
difference between us and the Air Force, is they come together 
as a group to be on the carrier to be synchronized as a combat 
element.
    And so we don't really view this one as that, quote, ``hard 
choice.'' It really lays out, given that we need to get that 
air wing back if we build the 12th aircraft carrier, then we 
need to go back to the 10th air wing. Our cycle is we need to 
be with a modern nuclear aircraft fleet, given the way these 
operate and design, the right number of air wings is two less, 
not one less, because we are no longer in that--the carriers 
are designed to last 50 years, but we need to do that long-term 
maintenance on them. That freed up that point of having that 
air wing anymore.
    So it is not a whole air wing right now, in fact, because 
it has been shrunk over time. It was a couple of--it is really 
four squadrons and an air wing commander. It was never a full 
air wing. And, at this point in time, we don't think it is an 
artifact that we really need to keep. We think it is a good 
business decision to put those airplanes in the operational 
squadrons and line ourselves up to being two air wings less the 
number of nuclear aircraft carriers we have.
    Mr. Langevin. Okay. Thank you, Admiral.
    I want to get to other questions I have. So we heard 
yesterday morning from Admiral Harris before the full committee 
that PACOM does not have a sufficient number of submarines to 
conduct the scale of operations that they would like in the 
Indo-Asia-Pacific region. And this is just one example 
highlighting our need for sophisticated undersea capabilities.
    How is the Navy leveraging cost-saving measures and 
supporting growth in key investment areas to achieve the 
desired force structure?
    Secretary Stackley. Well, let me start specifically with 
submarines. We have spent a fair bit of time here discussing 
the submarine dilemma that we have in terms of the number of 
submarines that combatant commanders demand and then the 
challenges in terms of, when Ohio replacement comes, can we or 
can we not sustain a two-Virginia-boat-per-year capacity. So I 
don't want to replay that tape.
    But the other element that Admiral Mulloy referred to 
earlier is adding the Virginia Payload Modules with the Block V 
submarines, basically add another mission for the Virginia 
submarines. It takes up their payload capacity from 12 up to 40 
Tomahawks for strike capability. So one of the demand signals 
for Virginia under certain scenarios--or for a submarine force 
under certain scenarios is that strike mission. And so we are 
increasing capacity per boat in that regard.
    So we are struggling with, can we sustain two Virginias per 
year to mitigate the shortfall; growing capability in terms of 
missile capacity in this particular case; as well as increasing 
the capacity of our weapons systems, the acoustic superior 
program that we have that we are introducing into Block V to 
make that force as capable and effective as possible. So it is 
both a capacity issue as well as grow-the-capability issue.
    Overall, though, we have described the 308-ship force, and 
I will tell you that, by way of driving stability into our 
shipbuilding program and designing for affordability where we 
can, I think we have done a great job in terms of delivering 
on, frankly, the promise of getting to that 308-ship Navy. What 
we have to do is sustain that focus and that effort across all 
of our programs.
    Mr. Langevin. Thank you, Secretary.
    I have long been an advocate of directed energy weapon 
systems, and I am glad that the knowledge is beginning to 
transition out of the lab into operational units, such as the 
30-kilowatt laser on the USS Ponce.
    Moving forward, how can we best couple our naval platforms 
with our strategic weapon systems when it comes to areas such 
as directed energy or cyber?
    Mr. Forbes. And I am going to ask you if you can take that 
for the record and submit it, because we only have a few 
minutes before our votes, and Mr. Hunter is recognized for 5 
minutes because the gentleman's time has expired.
    [The information referred to can be found in the Appendix 
on page 87.]
    Mr. Hunter. Thank you, Mr. Chairman. Yeah, and they close 
those votes down quick now. We have become prompt.
    First question, you brought this up in the beginning about 
the Mediterranean. Is it a strategic decision to not have 
amphibs in the Med right now?
    Admiral Mulloy. Sir, it comes back to what is called global 
force management [GFM]. And so there are amphibs in the 
Mediterranean when they are transiting but also when need to be 
repositioned based upon world activities. It does come down to 
do you have the number of forces you have, and everyone wants 
them. So right now that comes down to be, yes, sir, a strategic 
decision at an actual level to where we put our forces that we 
have forward.
    Mr. Hunter. Is there a threshold in Europe and Northern 
Africa on what would have to happen to have a permanent 
rotation in the Med again?
    Admiral Mulloy. I don't know if what I would call as a 
threshold. I mean, it comes back, again, the forces we have go 
where we need to be. We have been clearly using our amphibs to 
operate, if necessary, off Libya on a number of occasions, and 
other ships, whether it is on a national mission, grabbing the 
terrorists in Libya, or other events that happened over there.
    But, no, I don't know of any one threshold to say I have to 
be stationed there. That is really--I imagine it came up with 
General Breedlove talking to your committee earlier about how 
does he view the world in Europe, and then also the AFRICOM 
commander when he comes.
    Mr. Hunter. General, do you have any comments on that?
    General Walsh. Congressman, I think, you know, as you look 
at that situation, it is in that global force management. So as 
it goes into that GFM system, you know, we have an ARG 
[amphibious ready group]----
    Mr. Hunter. We have been hearing that a whole bunch. I am 
sure it is a great analytical program that determines where a 
ship should be, right? That is what it is?
    General Walsh. So I guess what I could look at right now 
is, because of the number of amphib ships we have right now, 
they get deployed as an ARG. As you are aware, an ARG gets 
deployed to CENTCOM. CENTCOM right now gets the highest vote; 
they get the ships. As Admiral Mulloy said, there are times in 
there, based on the situation, they will chop over one of those 
ships--could be more--as the situation directs.
    What we are looking at right now, though, is because of 
that, the situation in the Med, is whether we should be doing 
that more on a full-scale, permanent basis. You know, as before 
we had always kept the ARG together, now we are doing split and 
disaggregated operations where they deploy together and now we 
split them up. We are now looking at should we even look inside 
the GFM process on whether we should split them before they 
even deploy, because we don't have the number of ships to put 
in the Med.
    Mr. Hunter. Okay. Thank you.
    Second question, I chair the Coast Guard Subcommittee, so 
we do all the Coast Guard acquisition--OPCs [offshore patrol 
cutters], FRCs [fast response cutters], NSCs [national security 
cutters]. Secretary Stackley, we are trying to give the Coast 
Guard the same ability that the Navy has--advance procurement, 
block buys, multiyear procurement, and lead-time materials, 
just like the Navy does. Robert Work testified on this. GAO 
[Government Accountability Office] just did some stuff where 
they said they could save a lot of money, like, a billion 
dollars over the life of any of their programs.
    Do you see any complications with giving the Coast Guard 
the same--I mean, you are all building ships, and, in the end, 
it is you are going to build the ships. So that is my question. 
Do you see any problems with that?
    Secretary Stackley. Absolutely not. I think that is a great 
tool that we have been able to use to generate savings. And the 
savings we use go back in the shipbuilding program so we can 
get more of what we need. The key is to have stability in terms 
of requirements and design before you make those long-term 
commitments in terms of block buys.
    Mr. Hunter. Inherently, what is OMB's--if OMB were to have 
an issue with doing multiyear procurement and block buys, what 
would it be, besides they get locked in?
    Secretary Stackley. That is it. Yes, sir.
    Well, there are two things. One, have stability so you know 
that--if you change, if you make significant changes in the 
middle of a block buy or multiyear, then it is going to be 
destructive and it is going to eat up the savings you are going 
after. From a comptroller perspective, making that long-term 
commitment in the budget takes away flexibility. So if there 
are other requirements that emerge, you don't have as much 
flexibility in the budget to address the new requirements.
    Mr. Hunter. Roger.
    Okay, and my last question is about a thing called ATRT, 
automatic test and retest. Mr. Moulton talked about this a 
little bit, but there is a lot of money spent on integration 
and testing. Aegis is an example. I have a quote from Secretary 
Kendall, who is calling the ATRT program ``unprecedented 
success for SBIR technology''; record ATRTs, savings of cost 
and time to the Navy. I have a thing here where it says an 
Aegis test, 80 hours, nine analysts to do it manual; ATRT does 
it in 7 hours with one analyst.
    So all of these great, glowing things about ATRT, and I am 
looking at the President's budget. ATRT had, let me see, $7 
million in 2015; $23 million in 2016; now, zero for 2017.
    And the name has changed to ATA. Usually, that portends bad 
things for a program, like it is going to be dumped off to a 
large corporation-type contractor that is not an SBIR [Small 
Business Innovation Research] firm and not the inventor of 
this.
    Do you have any comments on this?
    Secretary Stackley. Well, first, I am a strong fan of the 
ATRT. I am the one who brought it into the Navy programs.
    Mr. Hunter. Right.
    Secretary Stackley. And so it is always--what we want is 
ATRT not to be something separate and different. We want all of 
our programs to be incorporating ATRT just like they do open 
systems.
    Mr. Hunter. Sure.
    Secretary Stackley. You will see a budget line item for 
open systems. We make that a part of the standard by which we 
design----
    Mr. Hunter. But it is zero, though. Why would it be zeroed 
out, then, for this budget, for the 2017 budget?
    Secretary Stackley. Well, we actually have a continuation 
of the ATRT efforts. So I will find the budget line item where 
we are doing it. I literally just met with the organization 
about 3 months ago going over this before we submitted the 
budget.
    Mr. Hunter. Okay.
    Secretary Stackley. What we have done is we have taxed 
programs to fund the effort, as opposed to a separate budget 
line item. We want the programs vested in the effort. We want 
them to be directly involved in identifying where the efforts 
go to provide the biggest----
    Mr. Hunter. Mandated to be in the effort, too, I would say, 
right? For different programs.
    Secretary Stackley. We directed it. Yes, sir.
    Mr. Hunter. Okay. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Forbes. Thank you.
    Gentlemen, I told you all you would have time to put 
something on the record. Unfortunately, we only have a few 
minutes left. So, rather than make you wait an hour and come 
back, if it is okay, I am going to let you put any comments 
that you want in the record that might elaborate or clarify any 
statement you have made, if that is agreeable with each of you.
    And, with that, let me just thank you so much for your 
being here and for your service to our country.
    And, with that, we are adjourned.
    [Whereupon, at 3:28 p.m., the subcommittee was adjourned.]


      
=======================================================================




                            A P P E N D I X

                           February 25, 2016

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 25, 2016

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
  

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                           February 25, 2016

=======================================================================

      

      

             RESPONSE TO QUESTION SUBMITTED BY MR. CONAWAY

    Secretary Stackley. Defense Logistics Agency (DLA) Energy's 
September 2015 alternative fuel contract award fully complied with 
applicable law, including the Fiscal Year (FY) 2015 National Defense 
Authorization Act (NDAA). While the FY 2016 NDAA was not signed into 
law until November 25, 2015, DLA Energy's award was also compliant with 
its requirements.
    The law requires that the fully burdened cost of alternative fuel 
purchased for operational purposes be cost competitive with the fully 
burdened cost of traditional fuel. That determination of cost 
competitiveness is made by DLA, not by the Department of the Navy or 
the U.S. Department of Agriculture (USDA).
    DLA Energy's April 2015 Rocky Mountain West Coast (RMWC) bulk fuel 
solicitation stipulated that alternative fuel producers who used U.S. 
agricultural feedstocks might be eligible for up to $0.25 per gallon in 
USDA Commodity Credit Corporation (CCC) funding.
    In September 2015, DLA issued a contract award to AltAir to supply 
a total of 77.6 million gallons of F-76 containing a blend of 10 
percent alternative fuel and 90 percent traditional fuel. The amount 
paid by the Department of Defense for the AltAir fuel blend is 
approximately $2.04 ($2.00 per gallon to AltAir for the fuel blend plus 
$0.04 per gallon for transportation of the fuel). AltAir qualified for 
just under $0.16 per gallon in USDA CCC funding.
    To determine cost-competitiveness, DLA compared the alternative 
fuel blend offered by AltAir with traditional fuel offers for both the 
2015 and 2014 RMWC solicitations. AltAir's offer was not reduced or 
otherwise lowered by the amount that would be paid with CCC funds. 
Rather, DLA's cost competitiveness analysis considered the full $0.16 
per gallon in CCC funding.   [See page 24.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MR. LANGEVIN
    Secretary Stackley. Directed Energy (High Energy Laser [HEL] and 
High Power Radio Frequency [HPRF]) Weapon Systems offer significant 
potential benefit to the Department of the Navy's warfighting 
capability and will complement traditional kinetic weapons (such as 
guns and missiles) in a layered defense scheme. Much has been learned 
from the Navy's design, development, deployment, and operation of the 
Laser Weapon System (LaWS) onboard USS PONCE. Lessons learned from the 
LaWS deployment feed the Solid State Laser Technology Maturation (SSL-
TM) development; which will design, build, test, and demonstrate a 150-
kW Laser Weapon System Demonstrator that will mature component 
technologies of the laser system and subsystems. SSL-TM is scheduled to 
conduct an at-sea test onboard the Self-Defense Test Ship (SDTS) in 
FY18, which will be the first time a laser weapon is connected to 
ship's power and cooling, and the first time system tracks and laser 
weapon source tracks are integrated.
    Ship integration studies were completed in 2012 for preliminary 
assessment of HEL integration on various ship classes, including DDG 51 
Flt IIA. The studies determined that integration of a 125-kW HEL on DDG 
51 Flt IIA is feasible with moderate modifications to ship's structure, 
power and cooling. A follow-on ship integration study for DDG 51 Flt 
IIA will be completed in Summer 2016 to provide a more detailed 
understanding of 150-kW HEL integration, to include integrated topside 
design and combat systems integration. Ship integration studies for 
other ship classes (including aircraft carriers and amphibious ships) 
have not been performed, but it is likely that integration of a 150-kW 
class HEL on these platforms is feasible.
    A Simulation Experiment (SIMEX) with live operators was conducted 
in Nov 2013 to explore HEL capabilities to defeat asymmetric threats 
such as FAC/FIAC and UAVs; and help define TTPs and duty cycle 
requirements. A future SIMEX is planned for Aug 2016 to leverage 
lessons learned from the prototype LaWS system deployed on the USS 
PONCE, to incorporate the findings of the 2016 ship integration study, 
and to further refine TTPs for a 150-kW class laser.
    For cyber, Navy is making limited initial investments in 
operational capabilities on our platforms which have the potential to 
be utilized for strategic effects in support of national, theater, or 
Fleet authorities. More information can be provided at the classified 
level upon request.   [See page 29.]

?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           February 25, 2016

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. FORBES

    Mr. Forbes. If Congress retains the current ``2-4-6'' modernization 
process for the Cruisers, when will Navy need to initiate a replacement 
design for the retiring cruisers? How does the Navy's ``Future Surface 
Combatant'' requirements assessment support the replacement of the 
cruiser force structure?
    Secretary Stackley. Under the 2-4-6 construct, the Navy will retire 
the final eleven Cruisers (CG 63-73) between FY35 and FY37. The ongoing 
Future Surface Combatant Capabilities Based Assessment (CBA) is 
examining potential solutions to close the capability and capacity gaps 
created by the retirement of the CG-47 class. The CBA is scheduled to 
be completed in FY16 and its results will inform the way ahead.
    Mr. Forbes. It has been reported that costs are programmed to 
increase as Navy reduces the funding profile associated with the 
Littoral Combat Ship. What are the increased costs associated with a 
reduced funding profile that have been assumed in the fiscal year 2017 
budget request?
    Secretary Stackley. The President 2017 Budget Request reduced the 
quantity of LCS procurements from six ships in FY 2017-FY 2018 (three 
per year) to a total of three ships in FY 2017-FY 2018 (two in FY 2017/
one in FY 2018). This quantity reduction will result in increased costs 
per ship due to loss in material savings, reduced labor efficiencies, 
and increased overhead. These impacts will be experienced resulting 
from a reduction in shipyard workload for both shipyards.
    With the reduction in FY 2017-FY 2018 ship quantities, the Navy 
estimates that both the FY 2015 and FY 2016 ships will experience 
increased costs for Cost to Complete funding by $83.7 million in FY 
2019 (for the FY 2015 ships) and $34.3 million in FY 2020 (for the FY 
2016 ships) as reflected in the President's 2017 Budget Request.
    The Average unit cost for the FY 2015-FY 2018 ships has grown by 
$30.8 million per ship from the FY 2016 to the FY 2017 Budget Request 
due to the reduction in quantity of three ships across FY 2017 and FY 
2018. The total increase for the nine ships being procured in FY 2015-
FY 2018 is $277.5 million.
    Mr. Forbes. Navy has indicated their intent to transition to a 
Frigate design for the small surface combatant and down select to a 
single production yard in fiscal year 2019. How does Navy retain the 
two production yards and what is the acquisition strategy that Navy 
intends to employ with the reduced funding profile? What is the most 
cost beneficial, minimum sustaining rate to maintain two production 
yards for the Littoral Combat Ship?
    Secretary Stackley. The President's 2017 Budget Request contains 
funding for two LCS in FY 2017 and one LCS in FY 2018, and assumes a 
transition to the Frigate beginning with one ship in FY 2019, one 
Frigate in FY 2020 and two Frigates in FY 2021. The Navy plans to 
continue the procurement of both LCS designs in FY 2017 in preparation 
for the transition to the Frigate and the downselect decision as soon 
as FY 2018.
    This down-select decision will place one of the shipbuilders and 
the supporting industrial base at risk of closure. The Navy assesses 
that the minimum sustaining rate to maintain affordable production at 
both LCS/Frigate yards would be nominally 1.5 ships per yard per year.
    Mr. Forbes. What steps could the Navy suggest to remove the high 
level of concurrency associated with the Littoral Combat Ship and the 
Mission Modules?
    Secretary Stackley. The LCS is designed to defeat growing littoral 
threats and provide assured access and dominance in coastal and open 
waters. Each LCS hull can be tailored and configured for a single 
focused mission by embarking a Mission Packages (MP). A Mission Package 
(MP) consists of a MM containing hardware, a mission crew, and required 
support aircraft. Three MPs are available to cover specific warfare 
areas, Mine Countermeasures (MCM), Surface Warfare (SUW), or 
Antisubmarine Warfare (ASW). The Fleet selects the MP to embark based 
on anticipated employment of the ship for a specific deployment or 
mission. MPs can be swapped out if the need arises. Additionally, the 
LCS MM program is structured to improve MM capability via planned 
increments. As Mission Systems are developed and fielded, they will be 
added to MMs.
    The Navy is procuring the quantity of mission systems and packages 
needed for system integration, crew training, developmental testing, 
operational testing, and operational deployments. Mission package 
components are procured when the system development is mature enough to 
transition to production. The mission systems have all been 
demonstrated in a relevant environment prior to mission package 
integration. The Navy, as planned, is delivering operationally 
effective mission package capability to the fleet, preventing delays 
from waiting to acquire all mission systems needed to meet the full 
baseline requirement.
    LCS's open architecture enables rapid and cost-effective technology 
insertion and spiral development capability delivering proven 
warfighting capability. One benefit of this approach is that LCS does 
not require lengthy modernization periods to change mission focus or 
incorporate new technology.
    An example of successful MM development and integration is the 
deployment of USS FORT WORTH (LCS 3) with the SUW MP. The SUW MP is 
designed to provide the capability to detect, classify, track, and 
engage multiple groups of small boats, and supports the conduct of 
maritime security operations and maritime interdiction operations 
(compliant and non-compliant visit, board, search, and seizure). The MP 
is currently equipped with the Gun Mission Module and the Maritime 
Security Module. Meanwhile, the program office continues to integrate 
and test the surface-to-surface missile module (Longbow Hellfire 
missile). This allows the deployment of needed capability without 
waiting for full development and integration of future capability.
    This modular approach, which allows, for incremental addition of 
capability as technology matures, is wholly consistent with the House 
version of the Fiscal Year 2017 National Defense Authorization Act.
    Mr. Forbes. Should Navy retain the legacy Mine Counter Measure 
Ships until sufficient capability is provided to support Mine Counter 
Measure requirements that begin to retire starting in 2019?
    Secretary Stackley. No, the extension of the AVENGER Class (MCM-1) 
Mine Countermeasure Ships is not the most cost efficient approach to 
support the operational requirement. The Navy's current plan for 
retirement provides flexibility for delayed replacement of mine 
countermeasures capability through 2023 in Bahrain, and 2024 in Sasebo. 
This will provide a significant overlap between the scheduled LCS MCM 
Mission Package deployments and the retirement of the legacy Mine 
Countermeasure Ships. Also, recent successes with operational 
integration of unmanned technologies within the Expeditionary Mine 
Countermeasure Companies already deployed to Bahrain will provide 
additional MCM capacity during the transition to the LCS MCM Mission 
Package.
    Aging and specialized vessels such as the AVENGER Class (MCM-1) 
ships continue to experience rising costs of upkeep and declining 
operability. Extending the expected service life of the AVENGER Class 
(MCM-1) beyond the current plan would require increases in funding 
investments to achieve minimal added years of service. If Mine 
Countermeasure capacity is required for mitigation during the 
transition, the Navy intends to leverage the demonstrated effective and 
flexible unmanned technologies employed by the Expeditionary Mine 
Countermeasure Companies as adaptive force packages to provide the most 
cost-efficient delivery of future warfighting capability.
    Mr. Forbes. Navy has proposed to reduce the Virginia-class 
submarine procurement concurrent with the Ohio-class submarine. In the 
Navy's estimation, does the industrial base have sufficient capacity to 
support a 2 Virginia-class submarine build rate concurrent with the 
Ohio-class submarine construction? What are the challenges that the 
industrial base needs to overcome to support a revision to the 30 year 
shipbuilding plan that would allow 2 Virginia class submarines per year 
during the next 10 years?
    Secretary Stackley. The long-range 30-year shipbuilding plan 
proposes that the Navy build two VIRGINIA Class Submarines (VCS) per 
year for the next 30 years, with the exception that only one VCS is 
procured in the years that OHIO Replacement (OR) Submarines are 
authorized (Fiscal Years 21, 24, 26-35), due to fiscal constraints.
    The Navy's Block V VCS contract is planned for FY19 through FY23 
with two ships per year, except for FY21. The Navy is evaluating an 
option to add a second VCS ship in FY21. To ensure construction of the 
additional ship is executable, additional funding in FY19 with advance 
procurement (AP) and economic order quantity (EOQ) funding would be 
needed to commence long lead time material activities and optimize 
savings from EOQ material procurements. Adding a second VCS in FY21 can 
be accomplished with minimal change in current submarine shipyard 
capacity and would improve manpower loading.
    Sustaining VCS production at two per-year consistently beyond FY23 
concurrent with OR production requires a thorough study to ensure that 
submarine programs are executed affordably, sustain the industrial 
base, provide required capabilities to the Fleet and are balanced with 
other shipbuilding requirements in the next 30-year shipbuilding plan.
    Mr. Forbes. Navy has proposed to replace the 14 Ohio-class 
submarines with 12 Ohio-class replacement submarines. There has been 
some discussion as to whether the requirement could be reduced even 
further. For example, a June 2010 report by a group known as the 
Sustainable Defense Task Force recommends reducing the SSBN force to 7 
boats; a September 2010 report from the Cato Institute recommends 
reducing the SSBN force to 6 boats, and a September 2013 report from a 
group organized by the Stimson Center recommends reducing the force to 
10 boats. Can you explain the requirement to procure 12 ballistic 
missile submarines vice some reduced requirement?
    Secretary Stackley. Last year the CNO approved the requirement for 
12 OR ballistic missile submarines and the Joint Requirements Oversight 
Council validated the requirement in order to meet the USSTRATCOM 
requirements for conducting the strategic deterrence mission. The 
Design for Maintaining Maritime Superiority, released by the CNO in 
January 2016, includes a line of effort to ``Maintain and modernize the 
undersea leg of the strategic deterrent triad. This is foundational to 
our survival as a nation.''
    The combatant commander requirement of 10 operational SSBNs is the 
minimum force structure needed to meet operational requirements in two 
oceans and support the Nation's strategic deterrent mission. The 
current 14 OHIO-class SSBNs and the planned 12 OR SSBNs deliver the 
required 10 operational submarines in 2080. The requirement to procure 
12 OR SSBNs allows the Navy to provide 10 operational SSBNs at any 
given time, while two SSBNs will be non-operational during their 
required mid-life maintenance overhaul periods.
    The SSBN force is sized to keep the required number of platforms 
properly positioned, postured, and survivable at all times--geography, 
survivability and target coverage all play a role. The stealth, force 
structure, and CONOPS are what make the SSBN survivable. Any change to 
one of these affects the survivability of the SSBN fleet. Maintaining a 
sufficient force size contributes to SSBN survivability by enabling 
operational flexibility. The force structure requirement is the minimum 
number of SSBNs operating in large open ocean areas to remain 
survivable against a determined and persistent adversary, and is not 
tied to the number of warheads carried by each submarine.
    Reducing the fleet below 10 operational SSBNs will significantly 
reduce survivability, degrade the strength of the sea-based strategic 
deterrent, and limit flexibility to respond to an uncertain strategic 
future (a more aggressive threat, for example). A smaller force 
structure is less survivable because operations become much more 
constrained and therefore more predictable.
    Mr. Forbes. Congress provided expanded authorities as part of a 
National Sea-Based Deterrence Fund that would support the SSBN(X) 
program. CBO has assessed that should the Navy fully utilize the 
current authorities in the Fund, a savings of ``several hundred million 
dollars'' would result. Does the Navy concur with CBO's savings 
estimate?
    Secretary Stackley. The Navy's initial cost assessment aligns with 
CBO's projections, and these projections will be validated in August 
2016 as part of an updated Cost Estimate to support OHIO Replacement 
SSBN Program Milestone B decision
    Mr. Forbes. Congress provided $250 million to support the 
accelerated construction of the LX(R) class ship from fiscal year 2020 
to fiscal year 2018. However, the administration did not provide 
sufficient funding in the fiscal year 2017 budget request to support 
continued acceleration efforts. What is the funding profile to support 
a construction award of the LX(R) class ship in fiscal year 2018?
    Secretary Stackley. The Congressional addition of $29M in FY16 
RDT&E funding enables the Navy to accelerate the contract specification 
and technical data package development process such that a competitive 
Detail Design and Construction (DD&C) contract can be awarded in late 
FY18. The lead ship construction option exercise is currently budgeted 
in FY20. The Congressional add of $250 million for accelerated 
construction advances the production planning and enables early 
procurement of long lead material in support of an accelerated 
production timeline (by approximately one year) following contract 
award.
    An additional $19M in FY17 is required to support full completion 
of Contract Design. Contract Design requires the development of 
subsystem details and a completed design, all to support the 
development of a final ship specification to be included in the 
technical data package for a competitive Request for Proposal release.
    Mr. Forbes. With regards to ship to shore connector and the LCAC 
service life extension program, the administration has truncated the 
LCAC service life extension program in fiscal year 2017 and has reduced 
the procurement of the ship to shore connector from four ships to two. 
How does this reduction in amphibious lift support amphibious 
operations in a contested environment? What risk is the Marine Corps 
bearing to support these diminished requirements?
    Secretary Stackley. Reductions to the LCAC Service Life Extension 
Program (SLEP) and Ship to Shore Connector (SSC) procurement in PB17 
will not affect amphibious lift requirements in a contested 
environment.
    An inventory of 72 LCACs is the requirement for steady state 
(CONUS/FDNF) operations and to deploy 62 LCAC craft (62 required to 
make 52, assuming 85 percent operational availability) to meet the 2.0 
Marine Expeditionary Brigade Assault Echelon lift requirements.
    These actions should not result in the USMC accepting additional 
risk. The LCAC SLEP reductions in PB17, coupled with a reduction in the 
LCAC 100/SSC program, will result in a five year ``bath tub'' with a 
low point of 66 craft. This remains above the minimum requirement for a 
major contingency and meets most of the steady state requirement. To 
fully meet steady state requirements, properly timed and funded Post 
SLEP Extensions are required to ensure the 72 LCAC retain the required 
service life.
    Mr. Forbes. Navy has previously indicated a requirement of 10 Joint 
High Speed Vessels. Congress provided an 12th Joint High Speed Vessel 
in the Consolidated Appropriations Act of 2016. Does the Navy need 
additional Joint High Speed Vessels?
    Secretary Stackley. The Navy's 2014 Force Structure Assessment 
update re-validated the requirement for Expeditionary Fast Transport 
(EPF), formerly Joint High Speed Vessels (JHSV), at ten ships. The Navy 
did not request any additional EPFs in the FY 2017 President's Budget 
because the battle force inventory will reach ten ships in FY 2018. EPF 
inventory will increase to 12 ships by FY 2020, due to the additional 
EPFs that Congress included in the FY 2015 Appropriations Act and 
Consolidated Appropriations Act of 2016.
    Mr. Forbes. Navy has proposed to replace the UCLASS program with a 
new unmanned Carrier Based Aerial Refueling System (CBARS). However, 
the name denotes that the CBARS program will be exclusively devoted to 
refueling with little support to a long held ISR requirement by the 
carrier aviation community. Does the Navy intend to provide ISR 
capability on this new CBARS capability? If so, should Congress rename 
this capability to more adequately denote the desired capabilities?
    Secretary Stackley. CBARS (MQ-25A) is a restructure of the UCLASS 
program. The MQ-25A program is envisioned to be an integral part of the 
future Carrier Air Wing, providing organic refueling and a tactical 
sea-based long-endurance Intelligence, Surveillance and Reconnaissance 
capability. To reflect a re-prioritized mission set, the Department has 
already initiated the re-designation process for Type/Model/Series from 
RAQ-25 (R-reconnaissance, A-attack, Q-unmanned) to MQ-25A (M-multi-
mission, Q-unmanned).
    Mr. Forbes. The P-8 Poseidon is a long range anti-submarine warfare 
aircraft and the MQ-4 Triton is a maritime surveillance UAV. How are 
the P-8 Poseidon and MQ-4 Triton related? Do the acquisition program 
objectives need to be synchronized to be effective? How the CBARS and 
MQ-4 Triton programs related and are their missions compatible?
    Secretary Stackley. The P-8A Poseidon and MQ-4C Triton programs are 
related through a common analysis of alternatives initiated to find the 
best materiel solution to recapitalize the Navy's Maritime, Patrol, and 
Reconnaissance Force (MPRF). The analysis showed that a mix of manned 
and unmanned aircraft could not only continue the MPRF missions in a 
way that could pace the threat, but could also add persistence, meeting 
more of the warfighter's intelligence, surveillance, and reconnaissance 
(ISR) demand, enabling the Navy to hold maritime targets at risk 
earlier and over longer periods of time. Subsequently, the unique 
requirements for each capability were identified and acquisition 
program objectives defined, enabling each program to focus on its 
primary mission area. The P-8A Poseidon and MQ-4C Triton are 
complementary, with P-8A primarily performing cue-to-kill Anti-
submarine Warfare (ASW) and Anti-surface Warfare (ASuW) missions and 
the MQ-4C providing persistent maritime ISR. Each program's acquisition 
objectives remain focused to achieve optimal capability. The fleet 
integration of each program is managed by the MPRF community to 
ensuring appropriate synchronization of these complementary 
capabilities.
    The MQ-4C Triton and MQ-25A programs are independent of each other. 
The MQ-25A program will deliver a high-endurance unmanned aircraft to 
fulfill the aerial tanker role for the Navy's Carrier Air Wing (CVW), 
thus preserving the strike fighter's flight hours for its primary 
mission. It will also leverage the inherent range and payload capacity 
of high endurance unmanned aircraft to provide critically-needed, 
around the clock, sea-based ISR capability in support of the Carrier 
Strike Group and the Joint Forces Commander. The Navy envisions that 
the open standards to be employed in the system design will enable 
greater flexibility and affordability for any future modifications to 
the aircraft after it has been fully integrated into the CVW.
    Mr. Forbes. MQ-4 Triton provides a shore based maritime 
surveillance capability. However, Triton maritime surveillance does not 
provide direct support for the aircraft carrier strike group. How does 
Navy intend to provide sufficient ISR capability in direct support of a 
carrier strike group and specifically, how does the MQ-4 Triton or 
CBARS capability support this effort?
    Secretary Stackley. The Carrier Strike Group and the Joint Force 
Maritime Component Commander require intelligence, surveillance, and 
reconnaissance (ISR) capability that is persistent and provides both 
multiple sensor coverage and depth of surveillance from the vital areas 
of the sea base to beyond the maximum striking range of potential 
adversaries. MQ-4C Triton and MQ-25A will provide complementary support 
for this effort. MQ-4C Triton will provide land-based, multiple sensor, 
persistent maritime airborne ISR independently or in direct support to 
Fleet and Strike Group Commanders. While the Navy anticipates MQ-4C 
Triton will primarily be tasked independently to areas at great 
distances from an aircraft carrier, Triton will provide its correlated 
sensor data directly to the Carrier Strike Group via tactical 
communications networks. Simultaneously, Triton's sensor data will be 
available for follow-on processing at exploitation nodes which also 
feed the Carrier Strike Group's operational picture. The MQ-25A program 
is envisioned to be an integral part of the future Carrier Air Wing 
(CVW), providing organic refueling and a tactical sea-based long-
endurance Intelligence, Surveillance and Reconnaissance capability. The 
Navy envisions that the open standards to be employed in the system 
design will enable greater flexibility and affordability for any future 
modifications to the aircraft after it has been fully integrated into 
the CVW.
    Mr. Forbes. Are 50 Long Range Anti-Ship Missiles (LRASM) that have 
been proposed between fiscal year 2017 and 2019 sufficient to support 
PACOM joint urgent operational requirement? Why has Navy proposed to 
truncate the production line of LRASM in fiscal year 2020? What options 
are being pursued to provide a submarine/surface launched LRASM 
variant?
    Secretary Stackley. Yes, the PACOM joint urgent operational 
requirement is sufficiently supported by the procurements in FY 2017 
through FY 2019 of 110 LRASM missiles (50 missiles for USAF and 60 for 
USN). This is referred to as the Offensive Anti-Surface Warfare (OASuW) 
Increment I piece of the Department's Cruise Missile Strategy, which is 
the material solution to meet the near to mid-term threats. Procurement 
of additional weapons beyond FY 2019 will be competitively awarded as 
part of the Department's OASuW Increment II program, which will also 
address future threats. Funding for this program was part of the 
Department's budget submission as a new start in FY 2017. It is 
expected that a LRASM variant will be part of the competition for this 
OASuW Increment II program.
    There is currently no government-funded activity to provide a 
submarine/surface launched variant of LRASM. DARPA conducted a single 
vertical launcher demonstration at the White Sands Missile Range as 
part of its LRASM demonstration program and the prime contractor, 
Lockheed Martin, intends to pursue a company-funded demonstration from 
a Navy ship in the near term.
    For submarine/surface launched cruise missiles, the Department's 
Cruise Missile Strategy includes the following efforts: support of 
Tomahawk Land Attack Block III and Tactical Tomahawk (TACTOM) Block IV 
through anticipated service lives; integration of modernization and 
obsolescence upgrades to TACTOM during a mid-life recertification 
program (which adds 15-years of additional missile service life); and 
development of the Next Generation Land Attack Weapon (NGLAW). Tomahawk 
upgrades will include development of Anti-Access/Area Denial (A2AD), 
navigation improvements and communication upgrades, as well as 
commencement of the development of a seeker to enable maritime 
engagements. NGLAW will be the submarine/surface launched weapon to 
address future threats under the broader Next Generation Strike 
Capability and is projected to reach Initial Operational Capability in 
the 2028-2030 timeframe.
    Mr. Forbes. The Harpoon missile is the largest Navy anti-ship 
missile with over 7,500 missiles having been built through the program. 
However, the range of this older missile and the capability of the 
seeker put Navy ships at risk as compared to other nation's anti-ship 
missiles. Even the United States export variant is more capable than 
the United States Navy's Harpoon missile. What are the Navy's plans to 
correct this significant deficiency?
    Secretary Stackley. To mitigate this capability gap in the near- 
and mid-term, the Navy is leveraging current systems to enhance over-
the-horizon (OTH) anti-ship capability, adding capacity across the 
surface force by increasing the number of surface ships that can hold 
potential adversaries at risk over extended ranges.
    -The FY17 budget submission includes $439M across the FYDP to 
develop a maritime strike capability for the Tomahawk Land Attack 
Missile (TLAM) (IOC no later than FY22) in addition to other planned 
communications and navigation upgrades.
    -The Department is making affordable investments to the family of 
Standard missiles that significantly increase warfighting capability. 
These improvements provide multi mission capability to existing in-
service weapons, planned incremental upgrades and future weapon 
procurements.
        -These investments in multi-mission Vertical Launch System 
        (VLS) capable weapons provide additional OTH anti-ship 
        capabilities with minimal investment in RDT&E and ship 
        integration.
    -Additionally, the Navy is conducting demonstrations of two 
different OTH missile systems onboard two Littoral Combat Ships (LCS) 
during FY16 to inform potential backfit for both variants of LCS as 
well as informing future Frigate (FF) requirements. Our plan is to then 
investigate full and open competition opportunities to deliver an LCS/
FF OTH anti-ship missile capability.
    To address long-term capabilities, the Navy will commence an 
analysis of alternatives in FY16 to support development of a next 
generation surface-launched long range strike weapon which will have 
both land attack and anti-ship capability. The resultant multi-mission 
weapon will address long-term land attack and anti-ship capability gaps 
to counter emerging anti-access/area denial (A2/AD) threats and 
increasing adversary surface ship capabilities while leveraging common 
technologies.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LANGEVIN
    Mr. Langevin. I have long been an advocate of Directed Energy 
weapons systems, and I am glad that technologies are beginning to 
transition out of the lab into operational units, such as the 30-
kilowatt laser on the USS Ponce. Moving forward, how can we best couple 
our naval platforms with our strategic weapons systems when it comes to 
areas such as Directed Energy, or cyber?
    Secretary Stackley. Directed Energy (High Energy Laser [HEL] and 
High Power Radio Frequency [HPRF]) Weapon Systems offer significant 
potential benefit to the Department of the Navy's warfighting 
capability and will complement traditional kinetic weapons (such as 
guns and missiles) in a layered defense scheme. Much has been learned 
from the Navy's design, development, deployment, and operation of the 
Laser Weapon System (LaWS) onboard USS PONCE. Lessons learned from the 
LaWS deployment feed the Solid State Laser Technology Maturation (SSL-
TM) development; which will design, build, test, and demonstrate a 150-
kW Laser Weapon System Demonstrator that will mature component 
technologies of the laser system and subsystems. SSL-TM is scheduled to 
conduct an at-sea test onboard the Self-Defense Test Ship (SDTS) in 
FY18, which will be the first time a laser weapon is connected to 
ship's power and cooling, and the first time system tracks and laser 
weapon source tracks are integrated.
    Ship integration studies were completed in 2012 for preliminary 
assessment of HEL integration on various ship classes, including DDG 51 
Flt IIA. The studies determined that integration of a 125-kW HEL on DDG 
51 Flt IIA is feasible with moderate modifications to ship's structure, 
power and cooling. A follow-on ship integration study for DDG 51 Flt 
IIA will be completed in Summer 2016 to provide a more detailed 
understanding of 150-kW HEL integration, to include integrated topside 
design and combat systems integration. Ship integration studies for 
other ship classes (including aircraft carriers and amphibious ships) 
have not been performed, but it is likely that integration of a 150-kW 
class HEL on these platforms is feasible.
    A Simulation Experiment (SIMEX) with live operators was conducted 
in Nov 2013 to explore HEL capabilities to defeat asymmetric threats 
such as FAC/FIAC and UAVs; and help define TTPs and duty cycle 
requirements. A future SIMEX is planned for Aug 2016 to leverage 
lessons learned from the prototype LaWS system deployed on the USS 
PONCE, to incorporate the findings of the 2016 ship integration study, 
and to further refine TTPs for a 150-kW class laser.
    For cyber, Navy is making limited initial investments in 
operational capabilities on our platforms which have the potential to 
be utilized for strategic effects in support of national, theater, or 
Fleet authorities. More information can be provided at the classified 
level upon request.
    Mr. Langevin. I have long been an advocate of Directed Energy 
weapons systems, and I am glad that technologies are beginning to 
transition out of the lab into operational units, such as the 30-
kilowatt laser on the USS Ponce. Moving forward, how can we best couple 
our naval platforms with our strategic weapons systems when it comes to 
areas such as Directed Energy, or cyber?
    Admiral Mulloy. Directed Energy (High Energy Laser [HEL] and High 
Power Radio Frequency [HPRF]) Weapon Systems offer significant 
potential benefit to the Department of the Navy's warfighting 
capability and will complement traditional kinetic weapons (such as 
guns and missiles) in a layered defense scheme. Much has been learned 
from the Navy's design, development, deployment, and operation of the 
Laser Weapon System (LaWS) onboard USS PONCE. Lessons learned from the 
LaWS deployment feed the Solid State Laser Technology Maturation (SSL-
TM) development; which will design, build, test, and demonstrate a 150-
kW Laser Weapon System Demonstrator that will mature component 
technologies of the laser system and subsystems. SSL-TM is scheduled to 
conduct an at-sea test onboard the Self-Defense Test Ship (SDTS) in 
FY18, which will be the first time a laser weapon is connected to 
ship's power and cooling, and the first time system tracks and laser 
weapon source tracks are integrated.
    Ship integration studies were completed in 2012 for preliminary 
assessment of HEL integration on various ship classes, including DDG 51 
Flt IIA. The studies determined that integration of a 125-kW HEL on DDG 
51 Flt IIA is feasible with moderate modifications to ship's structure, 
power and cooling. A follow-on ship integration study for DDG 51 Flt 
IIA will be completed in Summer 2016 to provide a more detailed 
understanding of 150-kW HEL integration, to include integrated topside 
design and combat systems integration. Ship integration studies for 
other ship classes (including aircraft carriers and amphibious ships) 
have not been performed, but it is likely that integration of a 150-kW 
class HEL on these platforms is feasible.
    A Simulation Experiment (SIMEX) with live operators was conducted 
in Nov 2013 to explore HEL capabilities to defeat asymmetric threats 
such as FAC/FIAC and UAVs; and help define TTPs and duty cycle 
requirements. A future SIMEX is planned for Aug 2016 to leverage 
lessons learned from the prototype LaWS system deployed on the USS 
PONCE, to incorporate the findings of the 2016 ship integration study, 
and to further refine TTPs for a 150-kW class laser.
    For cyber, Navy is making limited initial investments in 
operational capabilities on our platforms which have the potential to 
be utilized for strategic effects in support of national, theater, or 
Fleet authorities. More information can be provided at the classified 
level upon request.
    Mr. Langevin. I have long been an advocate of Directed Energy 
weapons systems, and I am glad that technologies are beginning to 
transition out of the lab into operational units, such as the 30-
kilowatt laser on the USS Ponce. Moving forward, how can we best couple 
our naval platforms with our strategic weapons systems when it comes to 
areas such as Directed Energy, or cyber?
    General Walsh. The Marine Corps is interested in directed energy 
weapons. Through our Science and Technology (S&T) portfolio, as well as 
the Office of Naval Research (ONR) and the Defense Advanced Research 
Projects Agency (DARPA), we continue to evaluate advances in directed 
energy technology in conjunction with challenges faced by the USMC. We 
have identified challenges in our Ground Based Air Defense (GBAD) 
portfolio where we are interested in evaluating potential solutions 
provided by directed energy technology. For instance, a future 
battlefield presents unique hybrid challenges where an enemy may use 
small Unmanned Aerial Systems (UAS) to ascertain our disposition on the 
battlefield in order to enable massed fire on our formations. Small UAS 
present a particularly difficult problem for traditional weapons 
systems and targeting assets. The Ground/Air Task Oriented Radar (G/
ATOR) coupled with a directed energy weapon could provide an 
expeditionary and lethal solution. We will continue to investigate our 
entire portfolio for areas where this technology can provide superior 
capabilities to the warfighter.
    To address your cyber comments, we are fully committed to the 
importance of this domain in the current and future battlefield. The 
Commandant has directed a force structure review termed `Marine Corps 
Force 2025' where we are evaluating the entire force structure against 
the future operating environment and threats, inclusive of cyber 
warfare. We have also stood up Marine Forces Cyber (MARFORCYBER) to 
provide operational forces in this arena. Finally, the Marine Corps has 
created on office for the Assistant Deputy Commandant for Information 
Warfare (ADC, IW) through which we are evaluating future cyber 
capabilities and supporting information related capabilities such as 
information operations, maneuver in the electro-magnetic spectrum, 
signature reduction, and big data analytics to rapidly assess myriad 
sensor inputs. The intent is to effectively integrate and synergize all 
capabilities so commanders can ``make sense and act'' at a tempo 
unmatched by our adversaries.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. BYRNE
    Mr. Byrne. The Office of the Secretary of Defense paused the LCS 
program for about 9 months to allow the Navy, the shipbuilders and 
service providers to do an in depth analysis. This analysis came up 
with a shipbuilding plan and stated the need for 52 LCS/Frigates and 
included the dual supplier buy strategy which kept the cost of the ship 
down and ensured stability in the industrial base. Abruptly the 
proposed plan is to decrease from 52 to 40 and includes a single 
supplier. Has the Navy engaged in any preliminary actions to begin the 
down select process? If so please explain to what extent this has 
occurred?
    Secretary Stackley. The Navy plans to competitively award one LCS 
to each shipbuilder in 2017, and proceed with completion of respective 
Frigate designs to support a competitive down-select to a single 
shipbuilder in 2018 based on the proposed Frigate design. This 
acquisition strategy sustains competition for the single ship awards in 
2017 and delivers the desired Frigate capability ahead of the original, 
approved schedule. However, it is recognized that this down-select 
decision also places one of our shipbuilders and much of the support 
industrial base at risk of closure. The Navy will use this current 
period of stable production--prior to the down-select decision--to 
thoroughly assess the impact of such potential closure on our strategic 
shipbuilding industrial base, the cost of our shipbuilding program, and 
our ability to support in-service ships, in order to identify 
appropriate actions to mitigate these impacts to the extent practical.
    Mr. Byrne. The Navy's stated goal in the Shipbuilding Plan is a 
fleet of 308 ships. While other classes of ships are seeing cuts as 
well, cutting the total number of LCS from 52 to 40 is a move in the 
wrong direction at a time when we need to grow U.S. naval presence 
around the world. With the expected cuts to the LCS program will the 
Navy be able to meet their stated goal of an end strength of 308 ships?
    Secretary Stackley. Yes, the Navy will reach 308 ships by the end 
of FY 2021. Shipbuilding plans for FY 2017 and beyond will determine 
the size of the Navy after 2021 because of the time necessary to build 
a ship. The ships that will be delivered by the end of FY 2021 to reach 
a total of 308 ships have already been authorized and appropriated in 
prior years. However, the reduction in the LCS program will impact the 
fleet size after 2021.
    Mr. Byrne. The President's Budget calls for the decrease of the LCS 
from 52 total ships down to 40. This type of unexpected change will 
undoubtedly increase the cost of these ships. Is it true that the 
President's Budget accounts for this at about a 20% cost increase per 
ship?
    Admiral Mulloy. The Fiscal Year (FY) 2017 President's Budget 
Request shows an approximate 20 percent cost increase per ship as 
reflected in the end cost average unit costs between FY 2016 and FY 
2017. While most of this premium is due to procuring one less ship, 
some of the premium results from the new contract award in FY 2017 (the 
original block buy contract completed in FY 2016).
    The quantity reduction results in increased costs per ship due to 
loss in material savings, reduced labor efficiencies, and increased 
overhead. These impacts will be experienced as a result of a reduction 
in shipyard workload for both shipyards for FY 2017.
    Mr. Byrne. Admiral Harris, the PACOM Commander, mentioned at a Full 
Committee hearing on February 24th that the Expeditionary Fast 
Transport (EPF) has an incredible ability to not only move people and 
machines but also have the capacity to build out other capabilities 
such as adding an expeditionary field hospital and turn it into a 
mobile hospital ship. The original need for Joint High Speed Vessels 
was 18 and in recent years the number has significantly decreased. What 
caused this decrease and what is the need by the Marine Corps for this 
type of capability moving forward?
    General Walsh. Of the original 18 Expeditionary Fast Transports 
(EPF), 13 were designated for the Navy and 5 were for the Army. The 01 
November 2012 Gate 6 Sufficiency and Configuration Steering Board (CSB) 
memo for the EPF stated that PB13 truncated the program from 18 to 10 
ships. The PB13 30-year shipbuilding report to Congress identified this 
drop as a function of two things. First, the overall requirement for 
JHSVs fell to 10 ships. Second, the Department of the Army transferred 
the 5 JHSVs it procured to the Department of the Navy as an efficiency 
measure. These two actions prompted the DON to halt planned JHSV 
production at 10 ships. Subsequently, the 2014 interim update to the 
Force Structure Assessment (FSA) revised the requirement to 11 vessels. 
OPNAV N81 is currently revising the FSA for 2016, the results of which 
are expected at the end of summer 2016.
    The MARFORs will continue to work with their respective NAVFORs to 
utilize EPFs for intra-theater lift requirements and support of the 
Geographic Combatant Commander's (GCC) theater security cooperation 
(TSC) plan. To date EPF ships have been used in conjunction with Marine 
Detachments for Southern Partnership Station, TSC operations along the 
west coast of Africa, evacuation contingency for the Sochi Olympics, as 
well as fleet experimentation. The EPF provides intra-theater troop/
equipment lift options which allows the conduct of alternative platform 
missions such as providing mobility for elements of a Special Purpose 
Marine Air Ground Task Force-Crisis Response (i.e. TSC-sized force) 
while meeting presence/deterrence/assurance in the GCC's purview.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. HUNTER
    Mr. Hunter. The Navy invests billions of dollars every year to 
acquire, sustain, modify and extend the service life of many different 
types and sizes of weapon systems. Paramount in protecting these 
investments and ensuring the effectiveness of these weapon systems is 
the challenge of managing all of the data, through Product Lifecycle 
Management (PLM).
    Naval Aviation is taking the role as Lead Systems Integrator for 
the UCLASS unmanned aircraft and other programs, and I'm hopeful this 
will result in cost savings over relying on prime contractors to act as 
the LSI.
    Do you see the Navy assuming more lead system integrator roles, as 
shown by the designation of the UCLASS program in the future?
    Secretary Stackley. In all cases the Department of the Navy (DoN) 
seeks to optimize management structures to best support program 
outcomes through all phases of acquisition and sustainment. This is a 
key consideration in the preparation of our acquisition strategies and 
life cycle sustainment plans. We support and comply with the provisions 
of Public Law 110-181, Section 802, which limits assignment of the Lead 
Systems Integrator (LSI) once low rate initial production has been 
achieved. DoN has undertaken initiatives which ensure the acquisition 
workforce is capable of filling the role of the LSI, where appropriate. 
These initiatives include the development and advancement of the 
organic technical capability that resides within the Naval Research & 
Development Establishment. This technical capability provides a solid 
foundation for DoN acquisition efforts and supports the acquisition 
workforce in successfully executing the LSI role.
    In the case of UCLASS and the restructured MQ-25A program, PMA-268 
is serving as government LSI for the Unmanned Carrier Aviation (UCA) 
program. The Navy is using the LSI construct in an attempt to: improve 
affordability across the system of systems life cycle; speed of 
capability delivery to the warfighter; increase government agility to 
react to and manage emerging technology; and the maximization of system 
of systems value over time.
    As government LSI, PMA-268 has developed and manages a government-
owned enterprise UCA architecture that includes open architecture 
interface standards. This approach has enabled the program to leverage 
significant prior DoN and joint investments across over 70 stakeholder 
systems, programs of record, and SYSCOMs (e.g. networks, TCPED, 
communications, avionics, etc.), and may provide further affordability 
opportunities after an Air System contractor is selected.
    Mr. Hunter. Does NAVAIR have a need to conduct timely readiness, 
oversight, and cost assessments in support of technical and 
programmatic reviews for Program Executive Officers, program managers 
and resource sponsors to improve Navy procurement, design, production, 
logistics and readiness productivity on both Navy-led and Contractor-
led programs?
    Secretary Stackley. NAVAIR conducts a variety of assessments in 
support of our acquisition and in-service programs.
    The Department of the Navy policy requires that ACAT I-IV programs 
have an Independent Logistics Assessment (ILA) conducted at each major 
program milestone, at two years POST-Full Rate Production (FRP) and 
every five years thereafter. The purpose of each major milestone ILA is 
to provide the milestone decision authority (MDA), program manager, 
program sponsor, customer, and other stakeholders with an effective 
measure of the program's integrated product support (IPS) planning and 
execution. Assessments independent of the system developers ensure an 
impartial evaluation of a program's product support status. The ILA 
process provides an effective method for evaluating risk, life cycle 
cost, supportability, and system product support performance from a 
total ownership cost perspective. The purpose of the Post FRP ILAs is a 
multi-disciplined product and process assessment to ensure that the 
system under review is operationally employed with well-understood and 
managed risk. The Post FRP ILA is intended to characterize the in-
service health of the deployed system. It provides an assessment of 
risk, readiness, technical status, and trends in a measurable form. 
These assessments substantiate in-service support budget priorities. 
The consistent application of sound programmatic, systems engineering, 
and logistics management plans, processes, and sub-tier in-service 
stakeholder reviews will help achieve the Post FRP ILA objectives.
    In a similar manner, the Weapons Maintenance Readiness Review 
(WMRR) process follows an enterprise model that includes NAVAIR, fleet 
and resource sponsors. The semi-annual reviews assess all weapons and 
target program supportability risks and issues. Risk mitigation or 
issue resolution recommendations are considered, business cases are 
analyzed and recommendations are forwarded to the WMRR stakeholders for 
adjudication. The vast majority of weapons are direct production to 
long term storage with little recurring/scheduled maintenance. Weapons 
maintenance and readiness status is generally assessed by Original 
Equipment Manufacturer (OEM) periodic All Up Round (AUR) or sub-system 
factory testing or LOT/age sample AUR fleet firings.
    Additionally, all Program Executive Offices (PEOs) have processes 
in place to manage their program portfolios. Examples include semi-
annual or annual program reviews (e.g., Program Management Reviews, 
Executive Steering Reviews, etc.) to include facets and attributes of 
logistics and supportability. These reviews report on readiness and 
cost drivers and initiatives to address program risk and issue 
resolution.
    NAVAIR also utilizes the Naval Aviation Enterprise (NAE) construct 
to conduct readiness reviews on Type/Model/Series (T/M/S) on a yearly 
cycle. The T/M/S reviews bring together the program manager with the 
fleet T/M/S Navy lead Commodore and/or Marine Air Group (MAG) 
Commander, resource sponsors, engineering, maintenance, supply, and 
logistics providers to examine readiness, cost, procurement, design and 
inventory management issues. This rigorous approach involves a three-
step review: 1) an O-6 level Type Commander (TYCOM) Readiness Workshop 
(TRW); 2) a two-star flag-level Current Readiness Cross Functional Team 
(CR CFT) review; and 3) a three-star NAE Air Board review that includes 
the Commander, Naval Air Forces (CNAF), Deputy Commandant for Aviation 
(DCA), and the Commander, Naval Air Systems Command (NAVAIR). Each T/M/
S and its associated readiness posture is thoroughly analyzed, leading 
to recommendations and implementation of current and future readiness 
approaches that optimize support to fleet operational/training 
requirements. Additionally, a weekly Executive Communication (EXCOMM) 
is conducted at the three-star level to discuss and address pressing 
cost, procurement, design, production, logistics, and readiness 
productivity issues affecting Navy and Marine Corps organic and 
contractor-led programs.
    In addition to NAVAIR-lead reviews and assessments, NAVAIR also 
supports numerous reviews and assessments conducted for major programs 
by the office of the Assistant Secretary of the Navy for Research, 
Development and Acquisition and the office of the Under Secretary of 
Defense for Acquisition, Technology and Logistics.
    Mr. Hunter. With Naval Aviation in charge of a large complex 
program like UCLASS, and in other programs in the future, and with so 
much data produced from design to disposition, do you see challenges in 
managing all of this data produced from disparate commercial and 
government IT sources?
    Secretary Stackley. Both government and industry are faced with 
today's challenge of properly managing the complexity and volume of 
data found in today's systems. NAVAIR has recognized the need to manage 
data as an asset so data can be turned into actionable information. 
Guidance, standards, and policy are being developed to make data more 
transparent, reusable, integrated and accessible. For example, a 
metadata standard has been developed to enable NAVAIR to manage data 
throughout its life cycle and improve interoperability. Information 
exchange standards and methods are being developed to improve data 
accessibility and security. Efforts are underway to investigate methods 
to providing a digital thread of data across the product life cycle 
from design to disposal.
    Mr. Hunter. With the rapid growth of Additive Manufacturing (3D 
printing) in NAVAIR, do you believe managers and engineers have the 
software tools they need to produce accurate digital data sets and a 
digital twin of Navy products and Parts throughout its lifecycle? Is 
that a looming problem for NAVAIR and other Navy agencies that are 
beginning to engaged in Additive Manufacturing?
    Secretary Stackley. Significant commercial investment in Additive 
Manufacturing (AM) technology and expanded use in commercial industry 
have exponentially improved the quality of components made via multiple 
AM processes and expanded its use to include multiple materials. 
Department of Navy (DoN) and NAVAIR have leveraged this commercial 
investment to develop the processes and data using AM technology to 
directly manufacture needed parts and components for our systems.
    NAVAIR's concept and use of AM technology for everything from 
polymer prototypes to metal safety critical components has highlighted 
a number of requirements that must be met to ensure that AM parts can 
be produced with consistent quality and be safely used with NAVAIR 
weapons systems.
    ``Digital Thread/Digital Twin'' capabilities are needed to enable 
broad use of AM and manage the digital data required--including 
computer aided design and manufacturing, product life cycle management 
and data management software, digital data architectures to ensure we 
have a standardized set of data components, and cyber security tools to 
protect AM data.
    Early in 2016, a Department of Navy AM Implementation Plan was 
developed to focus research and development activities for AM and 
accelerate AM implementation for the operational and logistics 
communities. The AM Implementation Plan identifies five primary goals 
to enable AM implementation and provides detailed roadmaps to meet each 
of them; digital AM data and the framework and tools to manage that 
data are called out specifically in the AM Implementation Plan.
    NAVAIR has begun developing Digital Thread capabilities at our 
Aviation Depots to enable use of AM and other digital manufacturing 
technologies to improve readiness. Initial development of cyber 
security approaches for AM and standards for managing AM technical data 
will be completed in 2016. Detailed planning for implementation of 
``Digital Thread'' capabilities is occurring now and is in accordance 
with the DoN AM Implementation Plan.
    Mr. Hunter. Is there a cost savings if the Navy procured an 
overarching Product Lifecycle Management (PLM) Software system that 
could read multiple IT disparate data sets, and allow stove-piped 
contractor provided software systems to be consolidated and reduced?
    Secretary Stackley. The Department of Navy continually reviews its 
defense business systems, including logistics information technology 
systems and product lifecycle management technology, to optimize the 
balance of investment and warfighting effectiveness. This investment 
management process, governed by 10 U.S.C. 2222, allows the Department 
to make informed investment decisions that are aligned to strategy 
while enhancing interoperability though common architectures and 
computing infrastructure. As a part of the investment approval process, 
the Navy continually assesses opportunities to phase out legacy systems 
and consolidate functionality to achieve maximum efficiency in all 
portfolios, to include logistics.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. PETERS
    Mr. Peters. What is being done to assess and solve the problems 
related with future use of the SEALs underwater delivery vehicle, 
namely that the Virginia-class submarines will only be able to have one 
of them attached, as opposed to the Ohio-class that can fit two? Is the 
issue being studied on what can be done, other than prolonging the life 
of the Ohio-class subs, to ensure capabilities and redundancies?
    Secretary Stackley. The first four OHIO Class SSBNs were converted 
within their service life to SSGNs because they were no longer required 
for strategic deterrence. The SSGNs will be at their maximum 42 year 
service life starting in 2026 and cannot be prolonged. The remaining 
OHIO Class SSBNs are necessary for strategic deterrence and will have 
reached their maximum service life as they are replaced by the OHIO 
Replacement SSBNs, and therefore, will not have service life remaining 
to convert to SSGNs.
    The VIRGINIA Class submarine mission areas include Special Warfare 
and the VIRGINIA Class Operation Requirements Document (ORD) requires 
support for one Dry Deck Shelter (DDS). VIRGINIA Class submarines 
currently accommodate Special Operations Forces (SOF) missions 
including the capability to deploy one SEAL underwater delivery 
vehicle. The VIRGINIA Payload Module (VPM) planned for Block V and 
later VIRGINIA Class submarines will retain these same SOF 
capabilities, including deploying one SEAL underwater delivery vehicle.
    The Submarine Fleet Commanders and COMNAVSPECWARCOM, along with 
OPNAV and NAVSEA recognized the impending loss of the unique SSGN 
capability and established working groups in early 2015 to review 
operational requirements and develop strategies to utilize VIRGINIA 
class submarines to replace the SSGN capability. These studies are 
expected to complete later this calendar year and inform the number of 
VIRGINA Class SOF host submarines required to meet known and future 
mission requirements, including those involving the SEALs underwater 
delivery vehicles.
    Mr. Peters. Some shipyards in San Diego, particularly General 
Dynamics NASSCO, build, repair, and maintain both U.S. Navy and U.S.-
flag commercial ships. Can commercial shipbuilding in fact help to 
lower the costs of U.S. Navy ship construction in the same facilities 
as well as help to maintain skilled workers for Navy shipbuilding? Can 
you give us an example and describe any other benefits?
    Secretary Stackley. The Navy's military preparedness depends on the 
private sector for shipbuilding and maintenance of the Fleet. The Navy 
has encouraged the shipbuilders to explore commercial shipbuilding 
opportunities, where feasible, to help reduce the costs of Navy 
shipbuilding programs. If the shipbuilder is able to obtain new 
commercial shipbuilding projects, the Navy will potentially benefit on 
existing contracts and any future Navy work. The benefits may include 
the reduction of some portion of fixed overhead expenses and retention 
of a critical skilled workforce for existing and future Navy work.
    Gaps in shipbuilding due to Navy shipbuilding profile changes can 
result in engineering and production work force gaps with our industry 
partners that impact the cost of future Navy new construction and 
repair work. These gaps may cause companies to lay off significant 
numbers of its production workforce, which will potentially force them 
to re-hire and re-train employees, with negative effects on 
productivity and quality. Absent commercial work, remaining Navy 
shipbuilding and repair work will be left to fund all shipyard 
overhead, driving up costs of Navy work as available yard capacity is 
underutilized.
    The production gap at General Dynamics National Steel and 
Shipbuilding Company (NASSCO) resulting from the Navy Expeditionary Sea 
Base (ESB) (formerly MLP) shipbuilding profile is a good example. The 
Navy has implemented a Shipbuilding Capability Preservation Agreement 
(SCPA) with NASSCO to promote future growth in commercial shipbuilding 
work at NASSCO. NASSCO was able to obtain commercial work to fill its 
production gap and likely avoided the potential lay-off of significant 
numbers of its production workforce. In addition, the commercial work 
allowed for a cost sharing of shipyard overhead costs with commercial 
customers.
    Mr. Peters. What is being done to assess and solve the problems 
related with future use of the SEALs underwater delivery vehicle, 
namely that the Virginia-class submarines will only be able to have one 
of them attached, as opposed to the Ohio-class that can fit two? Is the 
issue being studied on what can be done, other than prolonging the life 
of the Ohio-class subs, to ensure capabilities and redundancies?
    Admiral Mulloy. The first four OHIO Class SSBNs were converted 
within their service life to SSGNs because they were no longer required 
for strategic deterrence. The SSGNs will be at their maximum 42 year 
service life starting in 2026 and cannot be prolonged. The remaining 
OHIO Class SSBNs are necessary for strategic deterrence and will have 
reached their maximum service life as they are replaced by the OHIO 
Replacement SSBNs, and therefore, will not have service life remaining 
to convert to SSGNs.
    The VIRGINIA Class submarine mission areas include Special Warfare 
and the VIRGINIA Class Operation Requirements Document (ORD) requires 
support for one Dry Deck Shelter (DDS). VIRGINIA Class submarines 
currently accommodate Special Operations Forces (SOF) missions 
including the capability to deploy one SEAL underwater delivery 
vehicle. The VIRGINIA Payload Module (VPM) planned for Block V and 
later VIRGINIA Class submarines will retain these same SOF 
capabilities, including deploying one SEAL underwater delivery vehicle.
    The Submarine Fleet Commanders and COMNAVSPECWARCOM, along with 
OPNAV and NAVSEA recognized the impending loss of the unique SSGN 
capability and established working groups in early 2015 to review 
operational requirements and develop strategies to utilize VIRGINIA 
class submarines to replace the SSGN capability. These studies are 
expected to complete later this calendar year and inform the number of 
VIRGINA Class SOF host submarines required to meet known and future 
mission requirements, including those involving the SEALs underwater 
delivery vehicles.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MRS. WALORSKI
    Mrs. Walorski. The Navy's maritime surveillance fleet is reaching 
the end of its service life and the Navy is recapitalizing this 
mission. Given the critical importance of maritime surveillance to our 
national security and our economy, we cannot afford a gap in this 
capability. A big part of the recapitalization plan is the MQ-4C Triton 
unmanned system, which will provide persistent surveillance with an 
advanced maritime radar capable of providing detailed surveillance of 
millions of square miles of ocean. Does the Navy have sufficient 
resources to meet its global requirements for maritime surveillance? 
How do unmanned systems like Triton help address some of the perennial 
ISR shortfalls we frequently hear about?
    Secretary Stackley. Unmanned systems like MQ-4C Triton help address 
the ever-increasing demand for intelligence, surveillance, and 
reconnaissance (ISR) by leveraging their inherent reach and persistence 
and integrating with manned platforms to hold potential adversaries at 
risk earlier and over longer periods of time. Sufficient resources 
exist within the President's Budget to meet our commitments for the 
Navy's contribution to global ISR as prioritized by the Department. By 
the end of 2020, the Navy's Maritime ISR capacity fielded in support of 
the Global Force Management Allocation Plan will exceed that which is 
currently fielded.
    Mrs. Walorski. This committee has recently heard from General 
Breedlove, Commander of EUCOM, and Admiral Harris, Commander of PACOM. 
Both described the challenges posed by operating in anti-access/area 
denial (A2/AD) environments and that we must keep the focus on 
improving our EW ability. From your perspective, what portfolio 
capability gaps currently exist and what can installations like Crane 
and other Navy Labs do to further enhance this mission and their 
contribution?
    Secretary Stackley. While specific Electromagnetic Maneuver Warfare 
(EMW) gaps are classified, it is critical for our Naval Laboratories, 
Warfare Centers and Systems Centers to continue the work they are 
executing to develop and sustain Electronic Warfare (EW) and EMW 
systems.
    Several examples include:
    -Naval Surface Warfare Center Crane provides surface EW expertise 
for the SLQ-32 and its Surface EW Improvement Program (SEWIP) version 6 
and 7; the Advanced Off-board EW system; and Nulka Decoys.
    -Naval Surface Warfare Center Dahlgren provides development of the 
Real-Time Spectrum Operations system for surface platform management 
and deconfliction of the Electromagnetic Spectrum fleet usage, as well 
as deployment of the Electromagnetic Railgun.
    -Naval Undersea Warfare Center Newport provides expertise for 
undersea platform EMW systems and platform integration including work 
related to the BLQ-10 Electronic Support Measure as well as Electro-
optics, antenna and communications systems.
    -Naval Air Warfare Center Weapons Division, Point Mugu provides air 
EW self-protect and stand-off jammers, infrared countermeasures, threat 
simulation and jamming technique optimization, also platform 
integration for EA-18G.
    -Space and Naval Warfare Systems Center Pacific provides integrated 
Command, Control, Communications, Computers, Intelligence, Surveillance 
and Reconnaissance (C4ISR) solutions integrating forces, platforms, and 
functions into coordinated operational capabilities.
    -Naval Research Laboratory provides research expertise across all 
facets of EWM including radar systems, optical sensors and optics-based 
sensors, advanced electronic support measures techniques; and 
electronic warfare systems, techniques, and devices.
    In recent years the addition of Congress' authorization for Naval 
Innovative Science and Engineering, Section 219, funding has become 
especially important to ensuring our Naval Laboratory, Warfare Centers 
and Systems Centers and their respective workforce have state of the 
art technology and the means to physically and virtually collaborate in 
exploration of critical EMW Naval Gaps and to create a stream of 
innovation in this critical mission area.
    Mrs. Walorski. This committee recently heard from General 
Breedlove, Commander of EUCOM, and Admiral Harris, Commander of PACOM. 
Both expressed their need for more submarines and more long-range 
weapons in order to address the ever growing threats posed by Russia 
and the threats in the Indo-Asia-Pacific region. What role does the 
Navy's Virginia Payload Module program play in the development and 
acceleration of delivering the right weapons to address these growing 
threats?
    Secretary Stackley. The VIRGINIA Payload Module (VPM) will 
eventually recapitalize the loss of undersea strike capacity when the 
nation's four guided missile submarines (SSGN) retire. The VPM will 
enable the Navy to increase the volume of strike capacity over non-VPM 
VA Class boats and provides further options for delivery of future 
payloads to address growing threats around the globe.
    Mrs. Walorski. The Navy's maritime surveillance fleet is reaching 
the end of its service life and the Navy is recapitalizing this 
mission. Given the critical importance of maritime surveillance to our 
national security and our economy, we cannot afford a gap in this 
capability. A big part of the recapitalization plan is the MQ-4C Triton 
unmanned system, which will provide persistent surveillance with an 
advanced maritime radar capable of providing detailed surveillance of 
millions of square miles of ocean. Does the Navy have sufficient 
resources to meet its global requirements for maritime surveillance? 
How do unmanned systems like Triton help address some of the perennial 
ISR shortfalls we frequently hear about?
    Admiral Mulloy. Unmanned systems like MQ-4C Triton help address the 
ever-increasing demand for intelligence, surveillance, and 
reconnaissance (ISR) by leveraging their inherent reach and persistence 
and integrating with manned platforms to hold potential adversaries at 
risk earlier and over longer periods of time. Sufficient resources 
exist within the President's Budget to meet our commitments for the 
Navy's contribution to global ISR as prioritized by the Department. By 
the end of 2020, the Navy's Maritime ISR capacity fielded in support of 
the Global Force Management Allocation Plan will exceed that which is 
currently fielded.

                                  [all]





</pre></body></html>
